 
 

        Sem
          miannnual Repo
                       ort
         to the Cong
                C gresss




    Offiice of
            o Insspecttor Gener
                          G   ral
                fo
                 or the
                      e
    Railroad d Rettirem
                      ment Boarrd



     October 1, 2009
                   9 to Ma
                         arch 31, 2010
                                     0
                UNITED STATES RAILROAD RETIREMENT BOARD

                            OFFICE OF INSPECTOR GENERAL


                                     April 30, 2010

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a descriptive summary of our activities and accomplishments during the
period of October 1, 2009 through March 31, 2010. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report, along with any comments you may
wish to make, to the appropriate Congressional committees and subcommittees
within 30 days.

During this reporting period, we completed our audit of the RRB’s fiscal year
2009 financial statements, issuing an unqualified opinion. In addition we:

   •   published our “Letter to Management” detailing matters related to internal
       control identified during the financial statement audit;
   •   prepared our statement on Management and Performance Challenges
       Facing the Railroad Retirement Board;
   •   published the results of our annual evaluation of the agency’s information
       security program; and
   •   examined the RRB’s compliance with sections 2201(a)(1)-(5) and 2006(a)
       of the American Recovery and Reinvestment Act of 2009.

Our criminal investigators achieved 19 criminal convictions, 25 indictments
and/or informations, 10 civil judgments, and established receivables totaling over
$1.6 million.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                Sincerely,

                                                Original Signed by

                                                Martin J. Dickman
                                                Inspector General
844 N RUSH STREET CHICAGO IL 60611-2092                              Printed on recycled paper
TABLE OF CONTENTS


INTRODUCTION ............................................................................................................. 1
   Railroad Retirement Board .......................................................................................... 1
EXECUTIVE SUMMARY ................................................................................................ 2
   Office of Inspector General .......................................................................................... 2
   Office of Audit .............................................................................................................. 2
   Office of Investigations ................................................................................................ 4
OCTOBER 1, 2009 - MARCH 31, 2010 ACCOMPLISHMENTS .................................... 5
   Office of Audit .............................................................................................................. 5
      Opinion on the Financial Statements ....................................................................... 5
      Report on Internal Control ........................................................................................ 5
      Report on Compliance with Laws and Regulations .................................................. 6
      Management and Performance Challenges Facing the RRB ................................... 6
      Fiscal Year 2009 Financial Statement Audit Letter to Management ........................ 9
      Fiscal Year 2009 Evaluation of Information Security at the RRB ........................... 10
      American Recovery and Reinvestment Act of 2009 ............................................... 11
      Management Decisions and Implementation ......................................................... 12
   Office of Investigations .............................................................................................. 13
      Investigative Accomplishments .............................................................................. 13
      Current Caseload ................................................................................................... 14
   Representative Investigations .................................................................................... 15
      Disability Investigations .......................................................................................... 15
      Unemployment and Sickness Insurance Investigations ......................................... 17
      Retirement/Survivor Benefit and Representative Payee Investigations ................. 18
      Railroad Medicare Investigations ........................................................................... 20
      Civil Enforcement Results ...................................................................................... 22
   Hotline Contacts ........................................................................................................ 23
OTHER OVERSIGHT ACTIVITIES ............................................................................... 24
      American Recovery and Reinvestment Act of 2009 ............................................... 24
      Occupational Disability Program ............................................................................ 25
OUTREACH ACTIVITIES ............................................................................................. 27
OPERATIONAL ISSUES .............................................................................................. 28
      National Railroad Investment Trust ........................................................................ 28
LEGISLATIVE & REGULATORY REVIEW .................................................................. 28
 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010
TABLE OF CONTENTS

  APPENDICES ........................................................................................................... 29
     Appendix A – Office of Inspector General Reports and Other Publicly Available
     Documents Issued ................................................................................................. 30
     Appendix B – Audit Reports with Questioned Costs or with Recommendations That
     Funds be Put to Better Use .................................................................................... 31
     Appendix C – Report on Receivables, Waivers, and Recoveries ........................... 32
     Appendix D – Significant Matters ........................................................................... 34
     Appendix E – Management Reports ...................................................................... 35
     Appendix F – Reporting Requirements .................................................................. 41
     Appendix G – Acronyms ........................................................................................ 42
     Appendix H – Legal Citations ................................................................................. 43




 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


       IN
        NTROD
            DUCTIO
                 ON

       R
       Railroad
              d Retirem
                      ment Board

The Railroad Retire ement Boarrd (RRB) iss an independent agen ncy in the executive
branch of
        o the Fede eral governmment. The Board conssists of thre
                                                               ee
memberrs who are appointed by   b the Pressident of the
                                                      e United
States with
        w the adv  vice and consent of thee Senate. OneO Board
memberr is appointe ed upon the e recommeendation of railroad          The RRB is an
employe ers, anotherr member iss appointedd upon the                    indeependent
recomm mendation off railroad la
                               abor organizzations, and the            agency in the
third, wh
        ho is the Ch
                   hairman, is appointed to represen  nt the         execu utive branc
                                                                                     ch
public’s interest. Board
                   B      Memb bers’ terms are five yeears in          of th
                                                                           he Federal
length and expire inn staggeredd years.                                 govvernment.

The RRB B administe ers compre  ehensive dissability,
retireme
       ent/survivor, and unem  mployment-ssickness insurance be    enefit
programms for the naation's railro
                                 oad workerrs and theirr families. These
                                                                   T      progrrams are
codified under the Railroad Re   etirement Act,
                                           A 45 U.S..C. § 231, et. e seq. and d the Railroa
                                                                                          ad
Unemplo oyment Ins surance Actt, 45 U.S.C.. § 351 et. seq.,
                                                        s     respeectively. The RRB also o
has admministrative responsibilities for cerrtain benefit paymentss under the Social Seccurity
Act and the Medica are program  m.

The RRB  B’s central mission is to pay accu
                                          urate and timely beneffits. During   g fiscal yearr
(FY) 20009, the RRB B paid apprroximately $10.5
                                           $      billion
                                                        n in retirem
                                                                   ment and survivor bene  efits
to 589,0
       000 beneficiaries. RRB  B also paid roughly $1   154.1 million in net une
                                                                               employmen   nt
and sickkness insuraance beneffits to almosst 24,000 unemployme
                                                       u            ent insuran
                                                                              nce
beneficiaaries and 18,000 sicknness insuraance beneficiaries.

The RRB  B contracts
                   s with a sep
                              parate Mediicare Part B carrier, Pa   almetto GBBA, to proce
                                                                                         ess
the Med dicare Part B claims off qualified ra
                                            ailroad retirrement beneficiaries. As of
Septemb  ber 30, 200
                   09, there weere about 468,000
                                           4         succh beneficia
                                                                   aries enrolle
                                                                               ed in the
Railroadd Medicare Part B prog gram. During FY 2009      9, Palmetto
                                                                   o GBA paid over $900
million in          nsurance benefits.
         n medical in




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                1
              Office of
                     o Inspecto
                              or General for the Railroad Retiirement Bo
                                                                       oard 


          E
          EXECUTIVE SU
                     UMMAR
                         RY

          O
          Office off Inspector Gene
                                  eral

                    The
                    T Inspecttor General is appointe       ed by the President
                                                                        P          wiith the advicce
                        and consent of the Senate.
                                                S         He
                                                           e serves as an indepen    ndent and
  The Ins
        spector           objectivve  voice  to both  the Bo
                                                           oard   and  th e Congress s.  It is the
    General is             Inspecctor Genera   al’s responssibility to pro
                                                                         omote econ  nomy,
appointeed by the           efficie
                                  ency,  and   ef
                                                ffectivenes s  in RRB’s   programs.     To that ennd,
Presidentt with the         the Office
                                 O       of Insppector General (OIG) conducts
   advicee and              auditss/evaluation  ns, manage ement revie  ews, and insspections of  o
  consent of the            RRB programs
                                  p            a operatio
                                               and         ons. As a product
                                                                         p       of itts efforts, th
                                                                                                   he
     Senate.              OIG    off
                                  ffers recomm  mendations s  for improv vement  to R
                                                                                    RRB
                         management. The OIG also id        dentifies annd investigaates cases of
                     waste,
                     w        fraud, and abusse in RRB programs. The OIG works      w        closeely
              with Feederal prossecutors and makes th      he appropria  ate referrals for crimin nal
 prosecution, civil prrosecution, or moneta    ary recoveryy.

  The OIGG has appro oximately 50 employee    es assigned d to three operational
                                                                      o            componentts:
  the immediate Offic ce of the Inspector Ge eneral, the Office
                                                          O      of Auudit, and the
                                                                                  e Office of
  Investiga
          ations. The e OIG cond  ducts operaations from several locations: the  e RRB
  headqua arters in Ch
                     hicago, Illino
                                  ois; an inve
                                             estigative fie
                                                          eld office in
                                                                      n Philadelphhia,
  Pennsylvania; and domicile in  nvestigativee offices in Arlington,
                                                          A           V
                                                                      Virginia; Houston, Texa as;
  and Sann Diego, Ca alifornia. Thhese domiccile offices provide
                                                          p        more effectivee and efficie
                                                                                             ent
  coordinaation with other
                     o     Inspecctor Genera al offices annd traditiona
                                                                      al law enforrcement
  agencies with whic ch the OIG works
                                   w     joint investigatio
                                                          ons.

          O
          Office off Audit

  The Office of Audit (OA) conducts financcial, perform
                                                      mance, and compliance
                                                                          e audits an
                                                                                    nd
          ons of RRB
  evaluatio        B programs and operations.

  During this reportin
                     ng period, th
                                 he OA:

      •   completed itts annual audit of the RRB's
                                             R     comparative fin           ements for the
                                                                 nancial state
          fiscal years ended Sepptember 30, 2009 and 2008 along  g with the re
                                                                             elated reports
          on internal control
                      c       and compliance e;

      •   prepared the
                     e Inspectorr General's statement of
                                                      o Managem
                                                              ment and Performance
          Challenges Facing the Railroad Retirement
          C                               R          B
                                                     Board;
   
  Semiannnual Report to the Conngress
  Octoberr 1, 2009 – March 31, 2010
                               2                                                                    2
           Office of
                  o Inspecto
                           or General for the Railroad Retiirement Bo
                                                                    oard 



   •   published a "Letter to Managemen
                               M           nt" detailing
                                                       g matters re
                                                                  elated to intternal contrrol
       id
        dentified du
                   uring the financial state
                                           ement auditt;

   •   published th
                  he results off their annu
                                          ual evaluatio
                                                      on of the           OA conducts
                                                                              c
       agency’s infformation se
                              ecurity proggram condu ucted                finan
                                                                              ncial,
       pursuant to the requirements of th he Federal                      perfo
                                                                              ormance, and
                                                                                       a
        nformation Security Ma
       In                     anagementt Act of 200  02; and              comppliance aud
                                                                                        dits
                                                                          and evaluations
                                                                              e         s
   •   examined thhe RRB’s coompliance with
                                         w sectionns                      of RR
                                                                              RB programms
       2201(a) (1)-(5) and 200
                             06(a) of the
                                        e American Recovery                            s.  
                                                                          and operations
                                                                              o
       and Reinvesstment Act of 2009.

In addition, OA beggan their au
                              udit of the RRB’s
                                          R      Finanncial Interchange
with the Social Seccurity Admin
                              nistration and the Cen nters for Meedicare and Medicaid
Servicess. The OIGG has retainned the reso ources and expertise ofo a contracctor to perfo
                                                                                         orm
the evaluation of th
                   his complexx statistical process. The
                                                     T RRB esstimates tha    at the Finanncial
Intercha
       ange will comprise 35% % to 40% off future incoome for thee RRB trust funds overr the
next 75 years.

All auditts complete
                   ed during this reporting  g period are
                                                        e discussed
                                                                  d in further detail
                                                                               d      on pa
                                                                                          ages
5 throug
       gh 11 and th he full textss are available on our website
                                                        w       at www.rrb.go
                                                                   w          ov/oig.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                               3
                Office of
                       o Inspecto
                                or General for the Railroad Retiirement Bo
                                                                         oard 


           O
           Office off Investig
                            igations

    The Office of Inves
                      stigations (OOI) focuses its efforts on o identifyin
                                                                         ng, investig gating, and
                     prresenting RRB
                                   R     benefitt fraud case            ecution. OI conducts
                                                             es for prose
                         investigations throughout the Un     nited Statess relating to
                                                                                      o the frauduulent
O focuses its
OI                         receipt of
                                    o RRB disa  ability, unem mployment, sickness,
e
efforts on                  retiremment/survivo or,  or Railro
                                                             oad  Medicare benefits.. OI
id
 dentifying,,                invest igates railro
                                                oad    employyers  and unnions when there is an  n
in
 nvestigatin
           ng, and            indica
                                   ation that they have su   ubmitted falsse reports tot the RRB. OI
p
presenting    RRB             also in
                                    nvestigatess   allegationss regarding
                                                                        g  agency   emmployee
b
benefit frau
           ud cases          misconduct and threats
                                                 t        agaainst RRB employees.
                                                                        e               Investigattive
fo
 or prosecuution.           efforts  can result  in criminal  convictionss, civil pena
                                                                                     alties, recovvery
                           of program benefit funds, and/or adminisstrative sanctions.

                      Fro
                        om Octoberr 1, 2009 th
                                             hrough Marcch 31, 2010
                                                                  0, OI achievved:

       •   5 arrests;
       •   25 indictmen nts and/or informationss;
       •   19 convictions;
       •   10 civil judgments; andd
       •   34 referrals to the Depaartment of Justice.
                                              J

    Defenda ants, in the aggregate,, were sentenced to six months in
                                                                   n prison, 56
                                                                              6 years of
    probatio
           on, and 475 5 hours of coommunity service.
                                             s        Baased on OI investigatio
                                                                              ons comple eted
    during th
            his reporting period, th
                                   he RRB established reeceivables totaling
                                                                   t        ove
                                                                              er $1.6 millio
                                                                                           on.

    Represe
          entative frau
                      ud cases are discusse
                                          ed on pagess 15 to 22.




     
    Semiannnual Report to the Conngress
    Octoberr 1, 2009 – March 31, 2010
                                 2                                                                  4
                     Office of
                            o Inspecto
                                     or General for the Railroad Retiirement Bo
                                                                              oard 


             OCTOB
             O   BER 1, 2009
                        2    - MARCH
                               M   H 31, 20
                                          010
             A
             ACCOM
                 MPLISHHMENTS  S

             O
             Office off Audit

Congresss establishhed the OIG G to provide
                                          e independe ent oversight of the RR
                                                                            RB. Within n the
OIG, the
       e mission off OA is to promote
                               p        ecoonomy, efficiency, and
                                                                d effectiveness in the
administtration of RRB
                   R     programms; and to detect and prevent fra
                                                                aud and abu  use in such
                                                                                       h
program
      ms. Through   h the Inspeector Generral, OA keeps Board Members
                                                                M          an
                                                                            nd the
Congresss informed d of current and potenttial problem
                                                     ms and deficciencies in RRB
operatio
       ons. OA als  so tracks the status of progress to
                                                      owards corrrective action.

Brief sum
        mmaries off the audits completed during thiss semiannual reporting
                                                                         g period folllow.

             Opinion on the Financia
             O               F     al Statem
                                           ments –
                                1
             N
             Novemb  er 9, 200
                             09                                                     OA completed
                                                                                        c            its
                                                                                    annuual audit off
During this reportinng period, OA
                                O completed its annu      ual audit of              the RRB’s
                                                                                        R
the RRB B’s compara  ative financcial statemeents for the fiscal                    comparative
years ennded Septe  ember 30, 2009
                                2       and 20008. The OIGO offered                 finan
                                                                                        ncial
an unquualified opinnion on the financial statements, concluding
                                                           c                        state
                                                                                        ements forr the
that the financial sttatements, including acccompanying notes                       fisca
                                                                                        al years 2009
presenteed fairly, in all material respects, in conformity with U.S    S.           and 2008.
generally accepted  d accounting  g principless, the financcial position
                                                                       n of
the RRB B, its consolidated net cost of ope   erations and d changes in net
position,, and comb bined budge  etary resources as of and a for the fiscal yearss ended
Septemb  ber 30, 200 09 and 2008  8 and the fiinancial con ndition of th
                                                                       he Railroad Retiremen
                                                                                           nt
programm as of Janu  uary 1, 2009, 2008, 20   007, and 20 006.

             R
             Report on
                    o Intern
                           nal Conttrol

In planning and performing the   e audit of th
                                             he agency’ss financial statements
                                                                    s            , OA
considerred the RRB’s internal control ovver financiall reporting and
                                                                    a complia   ance. OA
considerred internall control to determine its proceduures for aud diting the fin
                                                                                nancial
statements and to comply
                    c        with
                                h Office of Manageme
                                             M        ent and Bud  dget (OMB)) audit


                                                       
1
  The auditor’s opinion is
                        i dated as of November 9, 2009, exceptt for matters re
                                                                             elating to the fair
                                                                                            f market va
                                                                                                      alue of
the net assets of the Na
                       ational Railroa
                                     ad Retirement Investment Trust
                                                              T     for which
                                                                            h the date is November
                                                                                           N       16, 2009.
 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                           5
           Office of
                  o Inspecto
                           or General for the Railroad Retiirement Bo
                                                                    oard 


guidance, and not to
                  t express an opinion on internall control. The
                                                             T OA repo
                                                                     orted the
        g:
following

   •   The RRB ha
       T            as made pro   ogress on strengtheni
                                            s           ng its inform
                                                                    mation secu
                                                                              urity progra
                                                                                         am
       but this efforrt is not yet complete and
                                            a informa ation security remains an area off
       m
       material  weaakness.

   •   During the th
       D           hird quarterr of FY 20009, the agenncy implemented enha   anced contrrols
       to
        o address the weaknesses that, in the aggre   egate, were e the basis for the OIG
                                                                                        G’s
       assessmentt of a materrial weakness during th  he prior yeaar. Howeve  er, becausee
       th
        hese enhannced contro  ols were nott implemented until miid-year, theey could nott be
       re
        elied upon to
                    t ensure th he accuraccy of accounnting and reeporting forr FY 2009.
       T
       Therefore, fiinancial rep
                               porting conttinues to be
                                                      e classified as a materrial weakneess.

   •   The RRB ha
       T          as correctedd a previously reported d significan
                                                                 nt deficiencyy by
       im
        mplementinng procedurres for the periodic
                                         p        recconciliation of the geneeral ledger to
       one of the non-integrated benefit payment
                                         p         syystems; how wever, the lack of such h
       procedures for other noon-integrate
                                         ed transaction flows ha  as been ideentified as a
       m
       material weaakness in th
                              he current fiscal
                                         f      year.

       R
       Report on
              o Comp
                   pliance with
                           w    Law
                                  ws and Regulati
                                         R      ions

The OA’’s audit of the RRB’s financial
                               f        sta
                                          atements inncluded testts of compliance with
selected
       d provisionss of laws an
                              nd regulatioons, includin
                                                      ng laws govverning the use of
budget authority,
       a          and other law ws and reg
                                         gulations thaat could have a direct and materiial
impact on
       o the RRB  B’s basic financial state
                                          ements.

The OA’’s tests of compliance
                   c             with selectted provisio
                                                       ons of laws and regulaations
disclose
       ed no instannces of non-compliancce that are reportable
                                                       r          u
                                                                  under  U.S. generally
accepted governme   ent auditing
                               g standardss or OMB guidance. However,
                                                                 H          th
                                                                             he objective
                                                                                        e
of the au
        udit was noot to provide
                               e an opinion n on overall compliancce with lawss and
regulatio
        ons and theey did not express
                               e        an opinion.
                                            o

       Managem
       M       ment and Perforrmance Challen
                                           nges Fac
                                                  cing the
                                                         e
       R
       Railroad
              d Retirem
                      ment Board

OA’s Ma  anagementt and Perforrmance Cha   allenges Fa
                                                     acing the Railroad
                                                                R        Rettirement Bo
                                                                                      oard
is publisshed in RRBB’s annual Performanc
                               P          ce and Acccountability Report. Thhis statemeent is
prepared  d pursuant to the Reports Consoolidation Actt of 2000 an
                                                                 nd the requ
                                                                           uirements of
                                                                                      o
OMB Circular A-13  36. This Cirrcular requires OIGs to
                                                     o identify th
                                                                 he most serrious

 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                              6
           Office of
                  o Inspecto
                           or General for the Railroad Retiirement Bo
                                                                    oard 


manageement challeenges facin
                            ng their parent agencyy and to brie
                                                              efly assess
the agen
       ncy’s progre
                  ess in addrressing thosse challeng
                                                   ges.

The follo
        owing sectio
                   on summarrizes each manageme
                                         m        ent and
                                                                             The OIG ideentified
performaance challe
                  enge discusssed in this statement..
                                                                              t most se
                                                                              the       erious
                                                                                managemment
       ng Oversig
Providin        ght of Invested Assetts of the Railroad
                                               R
                                                                             c
                                                                             challenges  facing
Retirem
      ment Act Prrogram
                                                                                  the RR
                                                                                       RB.
During FY
       F 2008, th  he OIG raise  ed concern
                                          ns about the e effectiveness
of oversight for the National Railroad
                               R         Rettirement Invvestment Trust
                                                                  T
(NRRIT)), a multi-billion dollar investmentt enterprise
                                                      e. The legisslation that
created the trust prrecludes ag gency mana agement an  nd its Inspe
                                                                  ector Generral from
        ng their trad
exercisin           ditional role
                                es as stewa
                                          ards of proggram assetss and indep  pendent
watchdoog, respectively. No other organization, pub   blic or privatte, has assumed whatt
would ottherwise be e the OIG’s oversight role.
                                           r

On Marcch 31, 2008 8, the OIG released
                                r        a “Statementt of Concerrn” discussing this issu
                                                                                       ue in
detail wh
        hich is publlicly availab
                                ble on OIG’s website at
                                                     a www.rrb.g gov/oig.

Preventting Fraud and Abuse in the Oc
                                    ccupationa
                                             al Disability
                                                         y Program
                                                                 m

Unlike th
        he Social Security
                   S        Act, the Railro
                                          oad Retirem  ment Act (RR RA) permitss certain
railroad workers to qualify for an annuity if they are disabled fro  om work in their regula
                                                                                           ar
railroad occupationn. The thresshold for qu ualification, which is lo
                                                                    ower than thhe standard
                                                                                          d for
determinning total and permane  ent disabilitty under thee Social Seecurity Act, makes the
occupational disability programm susceptib  ble to fraudd and abuse e.

The entiitlement to occupational disabilitie es is establlished by Federal statu
                                                                               ute. That
statute also
         a     requirees the RRB to establish occupatio onal disability standard
                                                                               ds with the
coopera  ation of railrroad labor and
                                  a manage   ement. As a result, an ny successful reform
initiative
         e will requiree negotiatio
                                  on by both rail
                                             r labor an nd rail manaagement an nd possiblyy
legislativve change.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                7
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


Ensurin
      ng the Integ
                 grity of the
                            e Railroad Medicare Program
                                                P

Qualified
        d railroad re
                    etirement beneficiaries
                               b          s are coverred under th
                                                                he Railroad
                                                                          d Medicare
programm the same as personss covered under
                                         u      the so
                                                     ocial security system. RRB contrracts
with a se
        eparate carrrier, Palmeetto GBA (P
                                         Palmetto), to
                                                     o process the
                                                                t Medicarre Part B
claims fo
        or its benefficiaries.

On Septtember 25, 2009, OA published
                               p           their report entitled Audit of the Railroad
                                                                               R
Medicarre Integrity Program
                    P        att Palmetto Governmen
                                            G            nt Benefits Administra
                                                                     A           tors. This audit
                                                                                            a
disclose
       ed that Palmmetto’s Med dicare Bene efit Integrityy Unit had very
                                                                    v    limited resources with
which too perform proactive fra
                              aud investiggations and data analyysis. Audito    ors
recomm mended thatt Palmetto work
                               w     with th
                                           he RRB and     d the Cente
                                                                    ers for Medicare and
Medicaid d Services to obtain th
                               he budget and
                                           a staff ressources ne    eeded to conduct proacctive
fraud invvestigations
                    s and data analysis.

      ng for the Security and
Managin                   a   Privacy
                                    y of Inform
                                              mation

Informattion technology security is a criticcal part of an
                                                        a effective privacy pro   ogram. The e
RRB is still
         s in the process
                   p          of developing
                                 d            an informattion securitty managem   ment progra
                                                                                            am
that commplies with Federal req  quirements. Although the agencyy is making progress,
ensuring g the security and privacy of agen   ncy-held infformation iss a significa
                                                                                  ant undertaking
that can be expecte  ed to prese ent a challennge during the near fuuture. As th  he RRB mo oves
toward compliance
         c            with the Fe ederal Inforrmation Seccurity Mana agement Acct of 2002, it
will also strengthenn its privacyy program. Corrective action to strengthen
                                                                    s             t securityy
                                                                                  the
and privvacy of inforrmation rem mains pending the imp  plementation of many priorp    OIG audit
recomm  mendations. This issue   e is discusssed in more detail in Ap ppendix D, Significantt
Matters..

Financial Accountting and Reporting
                          R

In the co
        ourse of the
                   eir financial statement audit, auditors observved that fina  ancial
accounting controlss could not be relied upon
                                            u     to ensure that maaterial errorrs would be
                                                                                          e
detectedd to prevent misstatem ments in fina ancial reporting and th
                                                                   hat controlss over financial
statement preparattion were no  ot fully effective.

During FYF 2009, RRB financia   al managerrs expresse  ed their com
                                                                  mmitment too strengthenning
controls over financ cial accoun
                               nting and re
                                          eporting by updating exxisting proccedures and d
controls as well as implementing new on   nes. Although progresss has been   n made,
improvements initia  ated during the secondd half of the
                                                       e fiscal year could not be consideered
         ective during FY 2009 and some additional work
fully effe                                             w     remainns to be do
                                                                             one in this area.
                                                                                         a



 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                8
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


Preventting and De
                 etecting Im
                           mproper Pa
                                    ayments

During FY
       F 2008, th   he RRB reco ognized ne early $53 million in neww overpaym ments in its
retireme
       ent, survivorr, and disabbility benefit operations of which nearly 80%% were
associatted with rouutine eventss: the deatth of an ann nuitant or ad
                                                                    dministrativve coordina
                                                                                          ation
of beneffits with the Social Seccurity Administration. Monitoring and reducing imprope     er
payments is inhere  ently challen
                                nging in a business
                                           b          ennvironment that pays benefits
                                                                               b        of such
                                                                                           s
magnitude under complex enttitlement an    nd computa  ational regulations. Prreventing an nd
detecting fraud in entitlement
                    e            programs such
                                            s     as the
                                                       e RRA and Railroad Unemployme       ent
Insurancce Act (RUIIA), adds an additiona  al layer of co
                                                        omplexity.

       Fiscal Ye
       F       ear 2009
                      9 Financ
                             cial State
                                      ement Audit
                                            A     Letter to
       M
       Managem ment – March
                      M      11, 2010

On Marcch 11, 2010  0, the OA isssued the Fiscal
                                            F     Year 2009 Finanncial Statem
                                                                            ment Audit
Letter to
        o Managem  ment. This le etter transm
                                            mits OA’s memorandu
                                                      m           m on intern
                                                                            nal control
commun  nicating cerrtain interna
                                al control matters
                                           m       that came to the OA’s atte
                                                                            ention durin
                                                                                       ng
the finan
        ncial statem
                   ment audit.

In addition to the previously discussed material
                                           m          weaaknesses, the OA note   ed certain other
                                                                                             o
matters involving th he RRB’s in nternal conttrol structurre and its operation. Although
                                                                                 A          these
matters do not rise to the leve el of a material weakne  ess or significant deficciency, eitheer
individua
        ally or in the
                     e aggregate e, they reprresent area as in which control wea  aknesses
increasee the risk off error or mishandling.

   •   A
       Agency acco
                 ounting pro
                           ocedures arre not alwayys updated in a timelyy manner.

   •   P
       Personally id
                   dentifiable information
                                         n appears on
                                                   o the trial balance.
                                                               b

   •   Procedures for depositing railroad
       P                                d employerss’ contributiions under the RUIA are
                                                                                    a
       not fully effe
                    ective.

   •   Better coord
       B          dination between the Bureau
                                       B       of Fiscal Operaations and the
                                                                          t Office of
                                                                                   o
       G
       General  Cou
                  unsel wouldd strengthen and expeedite the financial state
                                                                          ement
       preparation process.

   •   The RRB’s Federal
       T           F        Maanagers’ Fin  nancial Inte
                                                       egrity Act asssurance sttatement
       re
        eported in the
                   t Perform  mance and Accountabi
                                            A           ility Report is inconsisttent with the
       m
       managemen   nt control ce
                               ertificationss and not fu
                                                       ully supporteed.

     ement has agreed
Manage         a      to ta
                          ake action regarding
                                     r         a 13 audit recommend
                                               all        r       dations offe
                                                                             ered

 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                   9
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


to streng
        gthen intern
                   nal control.

       Fiscal Ye
       F        ear 2009
                       9 Evaluaation of Informa
                                        I      tion Sec
                                                      curity att
        he Railrroad Rettirementt Board – Novem
       th                                     mber 122, 2009
OA’s evaluation en ntitled Fisca al Year 20099 Evaluatio
                                                       on of Inform
                                                                  mation Secu
                                                                            urity at the
       d Retiremen
Railroad           nt Board wa    as publishe
                                            ed on Novem mber 12, 20009. The objectives
                                                                            o            o
                                                                                         of
this evalluation were to fulfill th
                                  he requirem
                                            ments of the
                                                       e Federal In
                                                                  nformation Security
                                                                             S
Manage ement Act ofo 2002 (FIS    SMA) whichh include:

   •   evaluating th
                   he RRB’s in nformation security pro
                                                     ogram, including the effectivenes
                                                                             e           ss of
       th
        he information securityy policies, procedures
                                           p          , and practiices of a representativve
       subset of ag
                  gency informmation systtems and

   •   assessing th
                  he RRB’s co ompliance with FISMA  A requireme
                                                              ents and reelated
        nformation security
       in          s        policies, proce
                                          edures, sta
                                                    andards, an
                                                              nd guideline
                                                                         es.

In their FY
         F 2009 ev  valuation, OA
                               O conclude  ed that the RRB has notn yet achie  eved a fullyy
effective
        e informatioon security program.
                                p         T RRB ha
                                          The          as impleme  ented all nin
                                                                               ne program  m
elementts required by FISMA; but the seccurity progrram, as a whole,
                                                                 w        is und
                                                                               dermined by b
significa
        ant deficienccies in acce
                                ess control and the intternal contrrol over the certification
                                                                                            n
and accreditation re eview proceess. Additiionally, som
                                                      me previoussly identifiedd lesser
deficienccies in the implemente ed FISMA elements
                                           e          co
                                                       ontinue to exist.
                                                                   e

During FY
        F 2009, th  he agency corrected
                                 c          prreviously re
                                                         eported sign nificant deficiencies in
                                                                                             n risk
assessm ments and periodic
                     p        tessting and evvaluation, and
                                                         a completted their firsst National
Institute of Standarrds and Tecchnology co   ompliant ce ertification and
                                                                      a accreditation program.
Howeve  er, an ineffective revieww process for
                                             f contracttor deliverab  bles has reesulted in a
significa
        ant deficienccy in internaal control over
                                             o    the cerrtification an
                                                                      nd accreditaation proceess.

OA also observed that
                    t    althoug
                               gh the agenncy has corrrected the significant deficiencies in
risk asseessments and
                    a periodicc testing annd evaluatio
                                                     on, some weaknesses
                                                               w           s in those arreas
continuee to exist. Additionally
                    A          y, they obse
                                          erved other areas wheere security program
improvements shou   uld be made, such as the implem mentation off the RRB’ss agency-wide
configurration policy
                    y.

Agency manageme    ent concurrred with all ofo OA’s reccommendattions. The full text of OA’s
                                                                                        O
findings is located in the librarry section of
                                            o OIG’s website at ww
                                                                ww.rrb.gov/o
                                                                           oig.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                  10
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


       A
       American Recov
                    very and
                           d Reinve
                                  estmentt Act of 2009

OA exam mined RRB  B’s assertion n that it hadd complied with sectio ons 2201(a))(1)-(5) and
2006(a) of the Ame  erican Reco  overy and Reinvestme
                                              R           ent Act of 20
                                                                      009 (ARRA  A). Sectionss
2201(a)((1)-(5) provvided a onee-time $250 economic recovery
payment to qualifying railroad retirementt program beneficiaries
                                                          b           s
and secttion 2006(a a) appropria ated funding  g for a tempporary
increasee in extendeed unemplo   oyment ben   nefits underr the RUIA.         OA examined the
Auditorss concluded d that mana agement’s assertion
                                              a          th
                                                          hat the RRB B       RRB  B’s assertion
complied d with the aforementio
                    a            oned require  ements, is fairly              thatt it had
stated, in all materiial respectss.                                           commplied with h the
                                                                              ARR  RA.
During their examin nation perta aining to se ections 2201(a)(1)-(5) of
the ARRRA, auditors s noted thatt agency managemen
                                            m              t had not fu
                                                                      ully
documented all of itsi control activities
                                 a          ovver payments made
pursuannt to this sec
                    ction. Auditors offered   d a recomm  mendation fo or correctivve
action and agency manageme       ent concurrred.

Both rep
       ports are av
                  vailable on our website
                                        e and at ww
                                                  ww.Recovery.gov.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                 11
                     Office of
                            o Inspecto
                                     or General for the Railroad Retiirement Bo
                                                                              oard 


             M
             Managem
                   ment De
                         ecisions and Imp
                                        plementtation

The OIGG tracks the
                  e implementation of itss recommenndations to RRB mana  agement. OMB
                                                                                  O
Circular No. A-50 (Revised) and the Insp pector Gene
                                                   eral Act Am
                                                             mendments of 1988 reqquire
the repo
       orting of ma
                  anagement decisions anda corrective actions for all audit
recommmendations.

                                                          Managem
                                                                ment Decis
                                                                         sions
                      Requirin
                             ng Manage
                                     ement Decission on Octtober 1, 200
                                                                      09               1
                      Pending
                            g Managem
                                    ment Decisio
                                               on for New
                                                                                       0
                      Recommmendationss
                      Manage
                           ement Decision on Pre
                                               evious Reco
                                                         ommendatiions                 1
                      Recommmendationss Pending Managemen
                                                M       nt Decision
                                                                  n on
                                                                                       0
                      March 31,
                            3 2010



                                                            Corre
                                                                ective Actio
                                                                           on
                      Recomm
                           mendationss Requiring Action on October 1, 2009           181 2
                      Recomm
                           mendationss Issued Du
                                               uring Reporrting Period
                                                                     d                2
                                                                                      20
                      Corrective Actions Completed
                                                 d During Re
                                                           eporting Pe
                                                                     eriod            5
                                                                                      56
                      Recomm
                           mendationss Rejected During Rep
                                                         porting Period                0
                      Final Ac
                             ctions Pend
                                       ding on Marrch 31, 2010                       1
                                                                                     145




                                                       
2
    Previously reported pending
                        p       recom
                                    mmendation ha
                                                as been accepted and has been added to
                                                                                    t this total.
 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                      12
                     Office of
                            o Inspecto
                                     or General for the Railroad Retiirement Bo
                                                                              oard 


             O
             Office off Investig
                              igations

OI focusses its efforrts and reso ources on RRB
                                             R     benefitt program fraud.
                                                                    f       OI's primary
objectivee is to identtify, investig          efer for prosecution orr monetary recovery action
                                   gate, and re
cases off waste, fraaud, and abuse in RRB    B programs. OI also seeks
                                                                    s      to pre
                                                                                event and deter
                                                                                           d
program m fraud by re eporting syystemic wea  aknesses inn RRB operrations and processess
identified
         d through innvestigative  e work. In order to ma aximize the
                                                                    e impact of its
                                                                                i resource es,
OI continnues to purrsue cooperative invesstigative acctivities in cooordination with other
Inspecto ors Generall and law enforcementt agencies, such as the Federal Bureau B       of
Investigaation, the U.S.
                    U Secret Service, an      nd the Posttal Inspectio
                                                                     on Service..

             In
              nvestiga
                     ative Ac
                            ccomplis
                                   shments
                                         s

                                                               Octoberr 1, 2009 –
                       Action
                            n
                                                                March 31, 2010 
                       Referra
                             als to the Department of
                                                                        3
                                                                        34
                       Justice
                             e
                       Indictm
                             ments/Inform
                                        mations                         2
                                                                        25
                       Arrests
                             s                                           5
                       Convic
                            ctions                                      1
                                                                        19
                       Civil Co
                              omplaints                                  8
                       Civil Ju
                              udgments                                  1
                                                                        10
                       Restitu
                             ution and Fines                        $716,119
                       Civil Da
                              amages and Penaltiess                 $686,228
                       Investig         overies 3
                              gative Reco                           $258,790
                       Commu
                           unity Servicce Hours                         4
                                                                        475




                                                       
3
  RRB bennefits that are
                       e overpaid due to fraud andd can be reco
                                                              ouped through
                                                                          h RRB admin
                                                                                    nistrative recovery
action are
         e expressed asa investigativve recoveries..

 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                       13
                  Office of
                         o Inspecto
                                  or General for the Railroad Retiirement Bo
                                                                           oard 


           C
           Current Caseloa
                         ad

During this semiannual reporting period, OI reviewe
                                                  ed 326 mattters and op
                                                                       pened 137 new
cases.

                                  I
                                  Investigative Caseloa
                                                      ad Data
             Investigatiive Cases Open
                                  O    as of October 1,, 2009                          3
                                                                                       374
             Investigatiive Cases Opened
                                  O      Du
                                          uring Reporrting Period                      1
                                                                                       137
             Investigatiive Cases Closed
                                  C      Durring Reportiing Period                     1
                                                                                       103
             Investigatiive Cases Open
                                  O    on March 31, 20
                                                     010                               4
                                                                                       408
 

OI’s currrent caselo
                   oad totals 40
                               08 matters,, representiing more thhan $52.5 million
                                                                           m       in
potential fraud. The chart beloow reflects the distribu
                                                      ution of OI cases
                                                                  c     and the potentia
                                                                                       al
fraud lossses by the
                   e RRB’s ma ajor program
                                         m areas.



                   86 Casses                        43 Casess
                  $44.6 Million                     $452,000
                                                           0                  Other*
                                                                              Disabilityy
                                                                              Unemplo
                                                                                    oyment & Sick
                                                                                                kness
                                                                              Retireme
                                                                                     ent
                                                                              Medicare
                                                                                     e



                                                                       16
                                                                        69 Cases
     59 Casees                                                         $4.3 Million
    $2.7 Millon

                  51 Cases
                  $460,000
*Other case type is an amalgam of various typess of cases invvolving matterrs such as missconduct by RRB
                                                                                                     R
employeees, threats aga
                      ainst agency employees, false
                                               f     reportingg by railroad employers,
                                                                            e          annd others.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                        14
            Office of       or General for the Railroad Retiirement Bo
                   o Inspecto                                        oard 


       Representative Investig
       R              I      gations
       O
       October 1, 2009 – March
                             h 31, 201
                                     10

       D
       Disability
                y Investtigations
                                s

OI cond ducts fraud investigatio
                               ons relatingg to the RRB's disabilitty
program m. Railroadd workers who
                              w are awa    arded a dissability annu
                                                                  uity
by the RRB
        R    are su
                  ubject to woork restrictio
                                           ons and earnings
limitatio
        ons.                                                                OI obtained
                                                                               o          eiight
                                                                            convictions an  nd
During this reportin ng period, OI
                                 O obtainedd eight convvictions and
                                                                  d         fourr civil
four civil judgmentts in disability fraud ca
                                           ases. The defendants
                                                      d                     judg
                                                                               gments in
received sentence   es totaling 25
                                 2 years of probation; 100 hours               ability fraud
                                                                            disa
of comm munity serv vice; and we ere ordered
                                           d to pay ove
                                                      er $705,000 0         casees. 
in restitution, fines
                    s, and civil damages/pe
                                 d          enalties.

Descrip
      ptions of rep
                  presentative
                             e cases com        uring this reporting
                                       mpleted du
period follow.
       f

       Pastor Fra
       P        audulentlly Collected More
                                         e Than $5
                                                 58,000 in Disability
                                                           D        y
       B
       Benefits
OI initiatted this inve
                      estigation of
                                 o an RRB disability
                                              d         an
                                                         nnuitant bassed upon a computer
wage match with th    he State of West Virgin nia that identified indivviduals who
                                                                                 o may have
collectedd RRB disa  ability beneffits on the same
                                              s      days they had earnings rep  ported to the
state. OI’s
        O investig   gation reveaaled that du uring the pe
                                                         eriod of Julyy 2004 through August
2007 the e annuitant failed to reeport his emmployment as a a Pastorr.

During an
       a interview w conducted  d by Speciaal Agents, the annuitan
                                                                 nt claimed that
                                                                              t    he hadd
mailed the RRB a letter notifying them off his employyment and had assum     med that hiss
employmment did no ot affect his entitlemen
                                          nt since the RRB subse equently ap pproved hiss
early Meedicare. Thhe annuitan nt was unab ble to produ
                                                      uce a copy of this lette
                                                                             er.
The annnuitant furth
                   her stated thhat in 2007 he had toldd an RRB representat
                                                                 r           tive that he was
not workking but cla
                   aimed that he
                               h actually meant that he did not perform an   ny physical
       T annuitant’s failure to report hiis income to
labor. The                                             o the RRB caused him  m to
fraudule
       ently receivee over $58,000 in disaability paym
                                                     ments.

This casse was referred to the United States Attorne     ey’s Office for
                                                                      f the Soutthern Districct of
West Virrginia. The e United Sta ates Attorne ey’s Office filed a civil complaint against
                                                                                  a       the
                                                                                            e
annuitannt for violatiions of the False Claimms Act. He  e entered into a consen  nt judgmennt
and wass ordered to o pay full reestitution plu
                                              us interest.
 
Semiann nual Report to the Con   ngress
Octoberr 1, 2009 – March 31, 2010 2                                                             15
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


       Annuitantt Reporte
       A                ed Earnings underr Spouse’s Social Security
                                                                  y
       N
       Number
OI Speccial Agents investigated an RRB disability
                                          d         annnuitant whho failed to report that he
was emp  ployed by tw
                    wo law firm
                              ms which represented injured
                                                      i       railrroad employees. In orrder
to avoid detection by
                    b the RRB B, the annuitant reporteed his wage  es under his spouse’s
social seecurity num
                   mber. The annuitant’s
                               a          failure to re
                                                      eport his inccome to the
                                                                             e RRB caussed
him to frraudulently receive approximatelyy $35,000 in disability payments.

This casse was referred to the United States Attorne ey’s Office for
                                                                 f the Wesstern Districct of
Texas. The subjec   ct was indiccted by a Fe
                                           ederal Gran
                                                     nd Jury and d subsequently pled gu uilty
to Failurre to Report Informatioon. He wass sentencedd to one yea ar of probation, full
restitutio
         on, and a fin
                     ne.

       D
       Disability Annuitan
                         nt Owned
                                d and Ope
                                        erated Co
                                                onstructiion Firm
Special Agents inve estigated an
                              a RRB disa ability annuuitant who owned
                                                                o       and operated his
own connstruction business. Their
                              T    investiigation reve
                                                     ealed that frrom 2005 through 200
                                                                                     07
the annuuitant workeed dozens of small an
                                        nd large con nstruction jo
                                                                 obs and earned wagess in
excess of
        o the allowwable amount establishhed by the RRA. The annuitant’ss failure to
report hiis income to
                    o the RRB caused himm to fraudullently receivve approxim
                                                                           mately $20,,000
in disabiility paymen
                    nts.

This casse was referred to the United States Attorne      ey’s Office for
                                                                      f the Easttern Districtt of
Wisconssin. The Un    nited Statess Attorney’ss Office filed an informmation againnst the
annuitan nt for violatiions of Failure to Repoort to the RRB.
                                                          R     The U.S.
                                                                      U District Court
rendered   d judgmentt against the e claimant and senten  nced him to o three yearrs of probattion,
full restittution, and a special assessment
                                  a           t fee. Addittionally, the
                                                                      e annuitant amended his h
Internal Revenue Service
                      S        tax returns for 2005 throu ugh 2007 to o accuratelyy reflect the
                                                                                              e true
income fromf     his co
                      onstruction business.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                  16
            Office of       or General for the Railroad Retiirement Bo
                   o Inspecto                                        oard 


       U
       Unemplo
             oyment and
                    a Sick
                         kness In
                                nsuranc
                                      ce Investtigations
                                                       s

Unemplo  oyment Inssurance (UI) and Sickn   ness Insurance (SI) be enefit
fraud invvolves indiv
                    viduals claim
                                ming and re eceiving UI or SI bene efits    In the aggregate, UI
while woorking and receiving
                     r         w
                               wages,  in vioolation of Federal
                                                        F       law,,       an
                                                                             nd SI defend dants
from an employer. OI receive   es the majority of these  e cases from
                                                                    m       recceived fourr
                                                                            moonths of priison,
the RRB B’s Disability, Sicknesss, and Unem  mployment Benefits
                                                                            25
                                                                             5 years of
Division as a resultt of informa
                               ation develo oped throug gh state wagge      proobation, and 175
matching programs   s. The RRB  B conducts computer wage w                  hoours of
matchess with various states to o identify claimants wh ho may havve        co
                                                                             ommunity se   ervice.
collectedd RRB adm ministered UI
                               U or SI ben  nefits on the
                                                        e same dayys
they recceived wage es from a private emplloyer.

During this reportin
                   ng period, OI
                              O obtained nine convictions and five civil jud  dgments for UI
and SI frraud casess. Defendan nts in thesee cases recceived, in thhe aggregatte, four mon
                                                                                         nths
of prison
        n, 25 years of probatio
                              on, and 175  5 hours of community
                                                       c            s
                                                                    service. Th
                                                                              hey were
ordered to pay over $109,000  0 in restitutio
                                            on, fines, and civil dam
                                                                   mages/pena alties.

The follo
        owing are examples
                  e        off UI and SI cases com
                                                 mpleted duriing this reporting perio
                                                                                    od.

       U Claimant Failed
       UI              d to Reporrt Wages
                                        s
The OI initiated this
                    s investigattion of an RRB
                                           R     UI claim
                                                        mant based
                                                                 d upon an agency
                                                                            a       refe
                                                                                       erral.
Subsequ uent OI inveestigation determined
                                d            that during
                                                       g February 2007 through Novemb  ber
2007 thee claimant applied
                    a        for RRB UI be enefits on th
                                                       he same daays she wass working fo
                                                                                       or a
private employer.
        e           The
                    T claima   ant failed to report her work and earnings
                                                                 e        to the RRB an nd
fraudule
       ently receiveed over $8,000 in UI benefits.
                                           b

This casse was referred to the United States Attorne  ey’s Office for
                                                                  f the Centtral District of
Californiia. The annnuitant pled
                               d guilty to a class A miisdemeano or and enterred into a plea
agreeme  ent agreein
                   ng to three years
                                y     of proobation, 75 hours of coommunity service,
                                                                            s         full
restitutio
         on, and a sp
                    pecial asseessment.

       U Claimant Impris
       UI              soned forr Four Mo
                                        onths
OI initiatted this inve
                      estigation of
                                 o an RRB UI
                                           U claimantt based upo  on an agenccy referral. OI
determin ned that be eginning February 2008 through October
                                                       O        20008 the claim
                                                                              mant applie
                                                                                        ed for
RRB UI benefits on    n the same days he wa as working for a privatte employer. The
claimantt failed to reeport his wo
                                 ork and earrnings to the RRB andd fraudulenttly received
                                                                                        d
over $9,600 in UI benefits.
                     b


 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                              17
           Office of
                  o Inspecto
                           or General for the Railroad Retiirement Bo
                                                                    oard 


This casse was referred to the United States Attorne ey’s Office for
                                                                  f the Wesstern Districct of
Virginia. The Unite
                  ed States Attorney’s
                             A          O
                                        Office filed an
                                                     a information against the claimant
for False
        e and Frauddulent Claim
                              ms. The claaimant pled d guilty andd was sente  enced to fou
                                                                                         ur
months of prison, three years of supervissed release e, and full re
                                                                  estitution.

       S Claimant Ordere
       SI              ed to Rep
                               pay Over $9,000
OI initiatted this inve
                      estigation of
                                 o an RRB SIS claimant based upo   on an agenccy referral. OI
determin ned that be eginning Ma ay 2006 throough Februuary 2007 th he claimantt applied fo
                                                                                          or
RRB SI benefits on    n the same days he wa  as working for a privatte employer. The claim mant
failed to report his work
                       w    and earnings
                                e         to the
                                             t RRB an  nd fraudule            ed over $9,000
                                                                  ently receive
in SI ben nefits.

This casse was referred to the United States Attorne ey’s Office for
                                                                 f the Distrrict of
Delawarre. The United States Attorney’s Office filed d a civil com
                                                                 mplaint against the
claimantt for violatio
                     on of the Fa
                                alse Claimss Act. The claimant
                                                      c         sig
                                                                  gned a stipulation and
                                                                                       d
consent order agre  eeing to payy full restitution.


       Retireme
       R       ent/Surv
                      vivor Benefit and Repre
                                            esentativ
                                                    ve Payee
                                                           e
       In
        nvestiga
               ations
The RR RA providess retirementt/survivor benefits for qualified
                                                      q         ra
                                                                 ailroad workkers and the
                                                                                        eir
familiess. RRB retirement/surrvivor beneffit fraud typ
                                                     pically involvves:

   •   an individual failing to report
                                r      inform
                                            mation to th
                                                       he RRB tha
                                                                at may disqualify the
       annuitant fro
                   om receiving benefits;

   •    nstances off theft and/o
       in                      or fraudulen
                                          nt cashing of
                                                     o retiremen nt benefit checks by
       someone other than the  e authorizeed RRB ann nuitant; or

   •   an individual designateed to receivee RRB bennefits on behalf of an RRB
                                                                           R   annuita
                                                                                     ant
       frraudulently using the funds
                               f     for their own perrsonal use.

During this reportin
                   ng period, OI
                              O obtainedd two convicctions for th
                                                                hese types of fraud caases.
The deffendants, in
                  n the aggregate, receivved sentences totaling g six years of probatio
                                                                                      on
and were also orde ered to payy almost $288,000 in restitution.
                                                   r

Examplles of cases
                 s completed during this reporting
                                                 g period follo
                                                              ow.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                              18
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


       Retiremen
       R         nt Annuittant Fails
                                   s to Reporrt his Retturn to
       W
       Work  in th
                 he Railroaad Industry
Special Agents inve   estigated a retirementt annuitant who  w failed to     Deefendants in
report hiis return to work with his
                                  h former railroad
                                               r         employer. The       rettirement ca ases
annuitannt filed for railroad
                     r        retirrement ben  nefits in Julyy 2002 afte
                                                                       er    weere ordered  d to
he was discharged
        d              from his po osition in th
                                               he railroad industry.
                                                             i               pa
                                                                              ay almost
The annnuitant was approved and   a began receiving ra       ailroad         $2
                                                                              288,000 in
retireme
       ent benefits.                                                         resstitution. 

In July 2003,
         2       the RRB
                     R    contactted the annnuitant regaarding an incorrect
calculatiion which caused
                     c       the annuitant
                                  a         to
                                             o receive an overpaym   ment of
more tha an $6,000. The annuitant met wiith an agen     ncy official in August 20 004 to requ
                                                                                            uest
an overp payment wa   aiver. The e annuitant appealed th he overpayyment collecction claimiing
that it woould cause him a finan  ncial hardsh
                                             hip. Duringg the course  e of this appeal, the
annuitan nt failed to report
                      r      his re
                                  eturn to wo
                                            ork in the railroad indusstry.

OI’s inve
        estigation re
                    evealed tha at in Decem
                                          mber 2003, the annuita  ant was rein  nstated by his
                                                                                             h
previouss railroad em
                    mployer. TheT annuita ant did not report
                                                      r      his re
                                                                  einstatemen   nt and
continueed to collect his retirem
                                ment annuitty. The annnuitant’s failure to repo ort his workk and
earningss to the RRRB caused himh to frauddulently recceive over $45,000,
                                                                  $          inccluding the
overpayyment amou   unt, in RRB retirementt benefits.

This casse was referred to the United States Attorne ey’s Office for
                                                                 f the Distrrict of
Columbiia. The ann nuitant wass indicted on Fictitious or Fraudulent Statemment, Theft ofo
Public Money,
        M      Wiree Fraud, an
                             nd Criminal Forfeiture. He pled guilty to Wire e Fraud and  d
was sen ntenced to two
                   t   monthss of prison, three yearss of superviised releasee, and full
restitutio
         on.

       A
       Annuitant
               t’s Son Steals Ove
                                er $240,0
                                        000 in RRB
                                                 B Benefitts
An annuuitant’s son failed to re
                               eport her deeath to the RRB
                                                        R    and frraudulently collected over
                                                                                         o
$240,0000 in RRB widow’s
                   w        bennefits. OI’s investigatio
                                                       on revealedd that the an
                                                                              nnuitant had
passed away in June 1979; ho    owever, RR RB continue ed to issue annuity cheecks in her
name un ntil August 2006. Spe  ecial Agentss determine ed that the son
                                                                   s had forrged his
mother’ss signature on the RRB benefit ch   hecks and converted the t annuitaant’s RRB
benefits for his own
                   n personal use.

This casse was referred to the United States Attorne
                                                   ey’s Office for
                                                               f the Distrrict of
Massach  husetts. Th he subject was
                                w indicte
                                        ed and pled guilty to Th
                                                               heft of Goveernment
Funds. He was sentenced to three yearss of probatiion, 200 ho ours of community servvice,
and full restitution.
 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                19
                          Office of
                                 o Inspecto
                                          or General for the Railroad Retiirement Bo
                                                                                   oard 


                           Railro
                                oad Med
                                      dicare In
                                              nvestiga
                                                     ations
                                         Qualified
                                         Q         ra
                                                    ailroad retire
                                                                 ement bene eficiaries arre covered under the
OI currently has                          Railroad Medicare
                                                    M          prrogram the same as persons
                                                                                        p         covvered underr the
866 active                                 social security syste em. The RR  RB enrolls railroad beneficiaries for
                                                                                                                f
Me edicare                                  Medicare e coverage e and colleccts premiumms for Part B medical
invvestigation
             ns                             insurancce. The RR  RB also seleects and mo  onitors the single
with an estimmated                          nationwide Medicarre Part B Carrier
                                                                           C        contrract. Duringg FY 2009, the
fra
  aud loss off over                        RRB’s Medicare con    ntractor paiid over $9000 million in medical
$444.6 million
             n.                           insurance benefits.

                      Acccording to a conservatiive estimatee by the Naational Health Care
     Anti-Fraud Associa  ation® “3% of all health
                                                h care spen nding—or $68
                                                                      $ billion— —is lost to
     health care fraud… ….Other estimates by government
                                                g           t and law enforcementt agencies
     place the loss due to health ca are fraud ass high as 10 percent of
                                                                       o our nation’s annual
     health care expend  diture—or a staggering g $226 billio
                                                            on—each year.
                                                                      y       And th
                                                                                   he cost of
     health care will onlyy continue to rise, which means the
                                                            t price taag associate ed with heaalth
                                                                            4
     care frau
             ud will rise too unless we can wo ork togetherr to combat it.”

     All of OI’s active Medicare casses are being worked jointly with the OIG offfices of the
                                                                                            e
     U.S. Department of Health and Human Services,
                                                 S          th
                                                             he Office of Personnel Managemeent,
     and othe er agenciess responsibble for invesstigating healthcare fra
                                                                        aud. Interag
                                                                                   gency
     coopera ation is impe
                         erative to effective law
                                                w enforceme   ent especia
                                                                        ally among agencies
     responsible for inveestigating healthcare
                                    h            f
                                                 fraud.

     During this reportin
                        ng period, OI
                                   O obtained one civil ju
                                                         udgment wo   orth $300,000 in dama
                                                                                          ages.
            ently has 86
     OI curre           6 active Meddicare investigations with
                                                          w an estimated fraud loss of ovver
     $44.6 million
           m       and an
                        a additionaal 33 Mediccare referralls under revview.

                  H
                  Health Ca
                          are Fraud
                                  d Preventiion and Enforcem
                                                    E      ment Actio
                                                                    on Team

     During this reportin ng period, several
                                     s       indivviduals havve pled guiltty to a varie
                                                                                      ety of Mediccare
     fraud scchemes including billing for mediccally unnece   essary duraable medica  al equipment,
     providing a less expensive pro   oduct than what was actually
                                                             a        paidd for by Me edicare, and
                                                                                                 d
     falsifying
              g certificate
                          es of medicaal necessityy.



                                                            
     4
       “Consu umer Alert: Th
                           he Impact of Health
                                        H       Care Frraud on You!” Anti-Fraud Resource
                                                                                R        Centter, 2010, National
     Health Caare Anti-Fraud Association, Apr. 1, 2010
     <http://ww
              ww.nhcaa.org/eweb/DynamicPage.aspx?     ?webcode=antti_fraud_resou urce_centr&w
                                                                                            wpscode=TheP  Proble
     mOfHCFra  aud>.
      
     Semiannnual Report to the Conngress
     Octoberr 1, 2009 – March 31, 2010
                                  2                                                                               20
           Office of
                  o Inspecto
                           or General for the Railroad Retiirement Bo
                                                                    oard 


These guilty
       g     pleas are the ressults of a co
                                          ooperative effort
                                                       e     with
various other Federal and loca al law enforrcement ag  gents as
memberrs of the Meedicare Fra aud Strike Force
                                          F      in Hou uston,        OI curre
                                                                             ently has
Texas. The Housto on Strike Fo orce is the fourth phasse of           one Speecial Agen nt
the Department of Justice and  d the Deparrtment of Health            assigneed full-time
                                                                                        e
and Humman Service es’ Health Care
                               C     Fraudd Prevention  n&            to HEATT activities
                                                                                        s
Enforcem          n Team (HE
        ment Action            EAT). OI currently
                                          c          has one          in Housston,
Special Agent assiggned full-tim
                               me to HEAT  T activities in            Texas.
Houstonn, Texas.

       C
       Clinic Ow
               wner Signs
                        s Consen
                               nt Judgm
                                      ment

A joint in
         nvestigation
                    n revealed that
                               t    the ow
                                         wner/preside
                                                    ent of a medical clinic employed
nurse prractitioners to examine
                              e, diagnosee, and treat patients while billing Medicare
                                                                             M        as if
the servvices were performed
                    p          b licensed physicianss.
                               by

This casse was referred to the United States Attorne   ey’s Office for
                                                                   f the Soutthern Districct of
West Virrginia. A ciivil complaint was filedd against th
                                                       he owner/prresident andd he signed
                                                                                        da
Consentt Judgmentt agreeing to t pay $300   0,000 plus interest. Seeveral criminal
informattions have also
                    a     been filed
                               f     in this case.

       R
       Retired Nu
                urse Con
                       nvicted by
                                y Jury
Informattion regardiing fraud scchemes perrpetrated byy a nurse patient
                                                                p       recru
                                                                            uiter was
discoverred during the
                    t executio  on of searcch warrantss conducted
                                                                d by HEAT. A federal
criminal complaint was
                     w filed ag gainst the nurse
                                           n     and she
                                                      s was arrrested by HEAT
                                                                           H      agentts
        g agents fro
including          om OI, Hea  alth and Human Servicces, and thee Federal Bureau
                                                                           B        of
Investiga
        ation.

Subsequ  uent investigation reve ealed that the owner of
                                                       o a durable
                                                                 e medical eq quipment
(DME) company
        c          paaid the nursse a kickbacck equaling
                                                       g 10% of the amount Medicare
                                                                             M          pa
                                                                                         aid
for eachh claim. Part of this sccheme invollved a high-dollar Meddicare code e for enterall
nutrition supplies. This code requires
                                 r        eaach patient to
                                                        t have a fe
                                                                  eeding tubee. The nursse’s
referral forms
         f      indicated that eaach patientt had a feed
                                                       ding tube when
                                                                 w     in fact none of thee
patients had feedin ng tubes and were not eligible to receive theese suppliess.

The nursse also sub
                  bmitted claims for highh-end rigid orthotic
                                                     o        or “artho”
                                                                 “       kits when in facct
she conspired with the compa any’s ownerr to actuallyy supply ineexpensive soft,
                                                                             s    over-th
                                                                                        he-
                  o the patients. When two
counter supplies to                      t   Medicare beneficia  aries refuseed the
inexpensive replacement prod  ducts, the nurse
                                         n     offere
                                                    ed them $10  00 to accep pt the produ
                                                                                        ucts.


 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                               21
              Office of
                     o Inspecto
                              or General for the Railroad Retiirement Bo
                                                                       oard 


  This casse was referred to the United States Attorne ey’s Office for
                                                                   f the Soutthern Districct of
  Texas. The nurse was indicte    ed on one count
                                              c    of Conspiracy to
                                                                  o Commit Health Care
  Fraud annd six coun  nts of Health Care Fraud. She wa as convicteed on all counts during
                                                                                         ga
  criminal jury trial an
                       nd is curren
                                  ntly awaiting
                                              g sentencin
                                                        ng.

  The DME owner wa
                 as also indicted on ide
                                       entical coun
                                                  nts and is currently
                                                             c         aw
                                                                        waiting
  sentencing.

                        Civil En
                               nforcem
                                     ment Res
                                            sults
 OI had a total of
           dgments
10 civil jud               OI mayy pursue civvil actions to obtain juddicial orders for the
   totalingg over          recove
                                ery of fundss fraudulenttly obtained d by annuitaants or
    $686,000 in            claima
                                ants. These e civil actionns are typiccally broughht under the
                                                                                             e
  damage   es and          provisions of the False Claim ms Act. This statute allows
                                                                                 a       the
     penaltties.                nment to reccover up to treble dam
                           govern                                   mages as well as $5,50   00 to
                          $11,000
                                0 for each faalse claim submitted.
                                                         s

                     Duuring this se
                                   emiannual period, a to  otal of 10 civil judgmen  nts were
   enteredd by U.S. District Courtts for RRB fraud cases totaling over  o     $686,000 in dama   ages
   and pen nalties. Some of these   e civil actio
                                                ons are purssued underr the Departtment of
   Justice’’s Affirmativ
                       ve Civil Enfforcement (ACE)
                                                (       program which provides an    n efficient
   means to address fraud again     nst RRB prrograms, pa   articularly where
                                                                        w      the frraud losses are
   below the financial guideliness for crimina   al prosecution. ACE iss an effective way to
   return fraud losses s to the RRRB’s trust funds and it also
                                                            a     createss a deterrent against
   future frraud.




   
  Semiannnual Report to the Conngress
  Octoberr 1, 2009 – March 31, 2010
                               2                                                                  22
          Office of
                 o Inspecto
                          or General for the Railroad Retiirement Bo
                                                                   oard 


      H
      Hotline Contacts
              C      s

The OIGG established its Hotline to receivve complainnts concern
                                                               ning suspeccted fraud,
       a abuse in the RRB
waste, and                  B’s programms and operrations. The Hotline provides an
open lin
       ne of commmunication for
                             f individuaals to reporrt suspected
                                                               d criminal activity
                                                                          a        and
misman nagement/wwaste of RR RB funds.

The Ho
     otline receiv
                 ved 1,185 contacts durring this rep
                                                   porting perio
                                                               od. The following tablle
summaarizes Hotlin
                 ne referrals for the perriod Octobe           hrough Marrch 31, 2010.
                                                   er 1, 2009 th


                                                   October 1, 2009 –
                                                   O
                  Referral orr Other Acttivity
                                                    March 31,, 2010
                 RRB
                 R     Districtt or Regiona
                                          al
                                                           751
                 Office
                 O
                 Other
                 O      (Hang g Ups,
                 Misdirected
                 M              Calls,                     304
                 Disconnectio
                 D             ons, etc.)
                 Office
                 O      of Inve
                              estigations                   66
                 Other
                 O     Federal Agenciess                    39
                 Calls
                 C     with Insufficient
                 In
                  nformation to
                              t Make                        16
                 Appropriate
                 A             Referrals
                 RRB
                 R   Bureau
                          us                                 4
                 Lo
                  ocal or Statte Agenciess                   2
                 Disposition
                 D           N Yet
                             Not
                 Determined,
                 D            Additional
                                                             2
                 In
                  nformation is
                             i Being
                 Obtained
                 O
                 Referred
                 R        to a Railroad                      1




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                           23
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


        O
        OTHER OVERS
                  SIGHT ACTIVI
                            VITIES

                       Ameriican Rec
                                   covery and
                                          a   Rein
                                                 nvestme
                                                       ent Act of
                        2009
                           9
The OIG prepares
        p
 monthly
       y ARRA             Duringg this semia annual periiod, the OIG
                                                                   G continued  d its ongoin
                                                                                           ng
progress reports.         effort to provide oversight ta
                                                       ailored to fitt the RRB'ss
                         respon nsibilities under the AR
                                                       RRA.

                       The ARR RA, signed into law on February 17,1 2009, established
                    general
                    g       requirements forf manage  ement and reporting
                                                                  r        w
                                                                           which   are
 applicab
        ble to all Federal agencies and ap  ppropriates funding fro
                                                                  om the geneeral fund off the
 U.S. Tre
        easury to pa ay benefits to railroad workers an
                                                      nd retirees as
                                                                  a follows:

    •   a one-time $250
                   $    payme ent to mostt individualss who receive benefitss under the
        R
        RRA, totaling approxim
                             mately $135
                                       5 million and  d

    •   13 additiona
                   al weeks of unemploym   ment benefiits for certa
                                                                  ain railroad workers wh ho
        exhaust theiir rights to the
                                 t benefitss normally provided
                                                      p         unnder the RU UIA, not to
        exceed $20 million.
 The RRB  B also rece
                    eived $1,480,000 to fund the addiitional administrative costs
                                                                            c
 anticipatted in connection with the payme
                                         ent of additional benefits. Howevver, it did no
                                                                                       ot
 provide any supple emental funding for ove
                                          ersight activvity by the OIG.

 During this reportin
                    ng period, OA
                                O examine   ed RRB’s compliance with the rellevant sectiions
 of the ARRA and published
                   p           th
                                heir results as
                                             a discusse  ed on pagee 11 of this report. The
                                                                                          e
 OIG alsoo contribute
                    ed to the naational efforrt to ensure
                                                        e a transparrent ARRA process byy
 preparin
        ng monthly progress re  eports in forrmats deve eloped by th
                                                                   he Recoverry
 Accounttability and Transparen  ncy Board. These mo    onthly reporrts are published on th
                                                                                          he
 Recoverry.gov webs  site and are
                                e also available on the e RRB’s Re ecovery Actt Information
 web pag ge.

 In addition, OI revie
                     ewed 18 ag
                              gency case referrals innvolving fraudulent recceipt of
 extended ARRA funded unem    mployment benefits
                                           b        and
                                                      d one casee referral invvolving the
 one-timee $250 ARR  RA paymennt to railroad
                                           d retiremen
                                                     nt annuitantts.




  
 Semiannnual Report to the Conngress
 Octoberr 1, 2009 – March 31, 2010
                              2                                                                 24
                     Office of
                            o Inspecto
                                     or General for the Railroad Retiirement Bo
                                                                              oard 


             O
             Occupat
                   tional Diisability
                                    y Program
                                            m

The RRB  B’s occupational disab  bility progra
                                             am is a uniqque benefit available only
                                                                                  o    to
qualifyin
        ng railroad workers.
                      w         The qualificaation standa ards for thiss benefit arre much
differentt, and some e would sayy more lenie  ent, than th
                                                         hose needed to qualifyy for a total and
permane  ent disabilitty under the
                                 e Social Se ecurity Act. The OIG continues
                                                                     c           too devote
investigaative and audit resourcces to the oversight
                                              o         off this and other
                                                                     o      agency programss.

The natiional spotlig ght was turned on the RRB’s occcupational disability
                                                                d          pro
                                                                             ogram in
Septemb  ber 2008 when
                     w     the Ne         mes reporte
                                ew York Tim          ed that nearrly every ca
                                                                            areer emplooyee
of the Loong Island Rail Road (LIRR)
                                 (     applies for and
                                                     d receives disability
                                                                d          be
                                                                            enefits soon
                                                                                       n
after retiirement. 5

In Octob ber 2008, thhe RRB ado  opted Board d Order 08-63 which described
                                                                    d       a five-point plan
for greatter oversighht of the occupational disability cllaims of LIR
                                                                    RR employe
                                                                             ees. As paart of
its five-p
         point plan, the
                     t RRB be   egan utilizin
                                            ng secondary medical screening ono all
occupational disability applica ants receiveed from LIRRR applicants.

On Nove ember 24, 2008,
                  2      the In
                              nspector General issued a briefin ng documen  nt entitled
Retirement Experie
                 ence of the Employeess of the Lon  ng Island Rail
                                                               R Road Un     nder the
Railroad
       d Retiremennt Act. Thiss documentt provided an
                                                    a analysiss of the retirrement
experien
       nce of employees of th he LIRR witthin the con
                                                    ntext of the railroad rettirement
programm as a whole
                  e.

       ember 2009
In Septe          9, the Gove ernment Acccountabilityy Office (GA
                                                                AO) reporte  ed that in
FY 2007 7 “LIRR worrkers applie
                              ed for occupational dissability benefits at a ra
                                                                             ate 12 timess
higher th
        han workerrs from otheer commuteer railroads”” and that “tthe RRB ap pproved thee
claims of
       o all workerrs at the sa
                              ame rate – near
                                         n     100%..” 6




                                                       
5
 Bogdanicch, Walt. “A Disability
                      D          Epide
                                     emic Among a Railroad’s Retirees.”
                                                               R        Neww York Times,, 20 Sept. 200 08.
6
 United States
        S      Governm ment Accounttability Office, Review of Co
                                                               ommuter Railrroad Occupatiional Disabilityy
Claims Re
        eveals Potential Program Vulnerabilities, GAO-09-821R (Washingto  on, D.C.: Sept. 9, 2009).
 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                               25
                         Office of
                                o Inspecto
                                         or General for the Railroad Retiirement Bo
                                                                                  oard 


    Pursuannt to a subs
                      sequent Con  ngressional request, GAOG      initiate
                                                                         ed “a systemmatic revieww of
                   RRB’s
                       s occupatioonal disabiliity programm.” 7 In a Fe ebruary 4, 2010
                                                                                    2     letter to
                                                                                                 t
                      th
                       he House Committee
                                  C            o Transpo
                                               on          ortation and d Infrastructture Rankinng
T impleme
The          entation    Member   J
                                  John  L. Mic  a  and the H
                                                           House    Subc committee    on Railroadds,
       of OIGG            Pipeliness, and Haza ardous Matterials Rankking Member Bill Shusster,
 recommend   dations       GAO   re
                                  eported  theyy  “found thaat no other rail employyers in [GAO  O’s]
   would pro ovide         analysiss had the consistently
                                              c            y high rates of occupattional disab  bility
      disabillity          awards that existe ed at LIRR forf calendar years 200    04 to 2007, the
                                                                                              8
   examiners s with        most cuurrent data available at a the time of o [GAO’s] review.”
                                                                                     r
     additional
    informattion.                         In connecction with th
                                                               he occupational disability program
                                                                                                m, the OIG has
                                        made
                                        m     the fo
                                                   ollowing reccommendattions to the RRB’s Boa  ard membe ers:

          •      All future occupational disability applicants sh
                 A                                              hould be se
                                                                          ent for a secondary
                 m
                 medical   scre
                              eening prior to adjudiccation.

          •      The RRB sh
                 T            hould requirre the applicant’s immediate supeervisor to co
                                                                                       omplete an nd
                 certify all RR
                              RB Forms G-251a
                                         G        or G-251b.
                                                     G         Th
                                                                hese forms are used byb the RRB to
                 re
                  equest inforrmation from railroad employers
                                                      e          regarding job duties performed
                                                                                      p           b
                                                                                                  by
                 applicants; however,
                              h         in
                                         n a large pe
                                                    ercentage of cases thee employerss fail to retu
                                                                                                  urn
                 th
                  he forms orr provide thee requested d informatio
                                                                 on.

          •      The RRB sh
                 T            hould amend current disability annuitant rem    minder formss to includee an
                 annual ques  stionnaire reequiring a certified
                                                        c        ressponse from
                                                                              m all disability annuitan
                                                                                                      nts.
                 Iff the disability annuitan
                                           nt fails to re
                                                        eturn the sig
                                                                    gned certification form
                                                                                          m within a
                 reeasonable timeframe,
                                t           then their disability
                                                        d         annnuity shou
                                                                              uld be suspe ended.

          •      The RRB sh
                 T            hould amend their currrent self-em
                                                               mployment/ccorporate in
                                                                                     nvolvementt
                 verification form
                               f    to requ
                                          uire more th
                                                     horough annd complete
                                                                         e informatio
                                                                                    on. The Board
                 iss currently working
                               w        with the OIG to
                                                     t develop a more commprehensivve form.

    The impplementation of these recommend
                                   r            dations wou uld provide disability examiners
                                                                                   e         w
                                                                                             with
    additional informatiion to consider in theirr adjudicatio
                                                            on process, resulting in better
    supporteed decision
                      ns.




                                                           
    7
      United States
               S     Govern
                          nment Accoun   ntability Office, Use of the Railroad
                                                                      R        Retire
                                                                                    ement Board Occupational
                                                                                                  O
    Disability Program
               P       acro
                          oss the Rail Ind
                                         dustry, GAO-1   10-351R (Wasshington, D.C C.: Feb. 4, 2010).
    8
      Id.
     
    Semiannnual Report to the Conngress
    Octoberr 1, 2009 – March 31, 2010
                                 2                                                                             26
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


       O
       OUTREA
           EACH ACTIVITI
                      TIES
                                                                            OI staff
                                                                               s     memb bers
In addition to audit and investigative activvities, OIG staff                 paarticipate in
                                                                                           i
memberrs perform outreach
                    o        ass a means to t further th
                                                       he office’s           Meedicare fraud
mission.. The followwing are exxamples of outreach
                                            o         acctivities              t
                                                                               task  forces
                                                                                          s
conducted during this reportinng period.                                     thrroughout the
                                                                                          t
                                                                                 country.
The Insp
       pector General made a presentattion to students
majoring
       g in Govern
                 nment Overrsight and In   nspection at
                                                     a John Jayy
College of Criminall Justice in New York. His presentation focu  used
on government aud diting stand dards and isssues pertin
                                                      nent to the Inspector General
                                                                            G
commun nity.

OI staff members participated
                    p             in a varietyy of Medicaare related meetings in  ncluding
several task
         t    forcess. These task forces provide
                                            p         an open
                                                         o     forum for health care
                                                                                  c      fraud
related communica
        c           ations and foster
                                f       a team approach  h to health care fraud
investigaations. Members of th  he various task
                                             t     forces include rep
                                                                    presentative  es from: the e
Departmment of Justtice; the Ceenters for Medicare
                                            M          an
                                                        nd Medicaid d Services; the
Departmment of Hea  alth and Human Servicces, Office of  o Inspecto or General; the Office of  o
Personn nel Manage  ement, Officce of Inspecctor Genera  al; the Fede
                                                                    eral Bureau u of
Investigaation; vario
                    ous State Po olice agenccies; various Medicaid Fraud Con     ntrol Units; and
Medicarre Program Safeguard Contractorrs. Since Railroad R        Meedicare is a national
programm, members   s of the OI staff
                                s     attend task forcess in severall judicial disstricts.  
Participa
        ation in Tassk Force me  eetings allo
                                            ows the Spe  ecial Agents to develo op the
necessa ary contactss and informmation to en nsure that Railroad
                                                         R         Meedicare frau ud losses will
                                                                                              w
be includded in any cases. The   ey also provide an opp  portunity fo
                                                                    or the OI Sppecial Agents to
become familiar with the mostt recent frau    ud schemes.

A numbeer of OA staaff memberrs participated in the Chicago
                                                    C       Chhapter for th
                                                                          he Associattion
of Government Acc  countants (A
                              AGA). AGA  A provides a variety off networking and training
opportun
       nities for go
                   overnment auditing
                              a          ofessionalss. Two OA staff memb
                                       pro                                bers currenttly
serve on
       n the Execu utive Comm
                            mittee as Me embership Director annd Website Director.




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                27
            Office of
                   o Inspecto
                            or General for the Railroad Retiirement Bo
                                                                     oard 


       O
       OPERATIONAL ISSU
                      UES
The opeerational iss
                   sue addresssed, impactts the OIG’ss ability to effectively
                                                                  e           c
                                                                              carryout its
oversigh
       ht role. Thiss issue wou
                              uld have to be remedieed with legislative cha   ange.


       N
       National
              l Railroa
                      ad Investment Trust
                                    T

The Nattional Railro
                   oad Retirem
                             ment Investment Trust (NRRIT) wasw establisshed by the
                                                                                  e
Railroad
       d Retiremen nt and Survvivors’ Improovement Act of 2001 (RRSIA)
                                                               (       to manage annd
invest Railroad
       R        Rettirement asssets. As off January 31,
                                                     3 2010, th
                                                              he RRB’s investments in
the NRRRIT were va alued at appproximatelyy $22.8 billio
                                                       on.

Although  h the Trust is a tax-exe  empt entityy independe  ent of the Federal gove ernment, th he
RRSIA requires
         r          thaat the Trustt report to th
                                                he RRB. This
                                                           T    office has previoussly expresssed
concerns about the     e RRB’s passsive relatio onship withh the NRRIT  T and has id dentified th
                                                                                                he
RRB’s oversight
        o            in this area as
                                  a a critical issue. How   wever, the RRSIA
                                                                        R        doe
                                                                                   es not provid de
the OIG with oversight authority to condu       uct audits and
                                                           a investig  gations of thhe NRRIT. This
office beelieves that independe   ent oversigh  ht of the Tru
                                                            ust’s operattions is neccessary to
ensure that
         t     sufficie
                      ent reportingg mechanissms are in place
                                                            p      and to
                                                                        o ensure thhat the Trusstees
are fulfilling their fid
                       duciary respponsibilitiess.

       L
       LEGISL
            LATIVE & REG
                       GULATO
                            ORY RE
                                 EVIEW
The Insspector Genneral Act off 1978, as amended,
                                         a          re
                                                     equires thee Inspector General (IG G) to
review existing
        e       and
                  d proposed d legislation
                                         n and regulaations relating to the programs
                                                                            p          an
                                                                                        nd
operatio
       ons of the agency.
                  a         Th
                             he agency neither
                                          n      propposed nor finalized
                                                                f         any legislation or
regulations during this reportiing period.

                   ng period, the
During this reportin          t IG sent correspond        dence to a variety of Senators
                                                                                   S         an
                                                                                              nd
Representatives, the
                   t Attorneyy General, and the Se       ecretary of Health
                                                                      H      and Human
Servicees regardingg vulnerabillities in the Medicare program.
                                                         p           S
                                                                     Specifically,   the curren
                                                                                              nt
Medicare fraud de etection system of “payy and chase     e” is antiqua ated and a software
system utilizing reaal-time ana
                              alysis may provide
                                            p         a more
                                                        m      effectivve and efficcient meanss to
identify and prevennt fraud. There are cu   urrently threee bills pending before   e the Congrress
which thhe IG believves represe
                              ent steps in  n the right direction.
                                                         d          T
                                                                    They   are the e Seniors and
Taxpayyers Obligattion Protecttion Act of 2009
                                            2       (S. 97
                                                         75) and the Prevent He    ealth Care
Fraud Act
       A of 2009 (H.R. 4222   2 and S. 2128). Recently the IG sent corresspondence to
each co osponsor exxpressing support
                              s          for their legisla
                                                         ation and reespectfully requesting
                                                                                   r            that
each bill be amend ded to speccifically nam me the Railrroad Mediccare program     m.


 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                                                   28
          Office of
                 o Inspecto
                          or General for the Railroad Retiirement Bo
                                                                   oard 



      A
      APPEND
           DICES

                                                                           Page
                                                                           P
Appen
    ndix Title
             e
                                                                            N
                                                                            No.
     A        Offic
                  ce of Inspeector Gene
                                      eral Reportts and Other Publicly
                                                                     y      30
              Available Documents Iss  sued
     B        Auddit Reports with Quesstioned Coosts or with
                                                           h                31
              Recommendattions that Funds Be Put to Bettter Use
     C        Report on Rec ceivables, Waivers,
                                       W        a Recove
                                                and        eries            32
     D        Sign
                 nificant Maatters                                          34
     E        Mannagement Reports
                             R                                              35
     F        Reporting Req quirementss                                     41
     G        Acroonyms                                                     42
     H        Legaal Citations                                              43




 
Semiannnual Report to the Conngress
Octoberr 1, 2009 – March 31, 2010
                             2                                               29
 


             Appendix A – Office of Inspector General Reports and Other
             Publicly Available Documents Issued
    • Management and Performance Challenges Facing the Railroad Retirement Board,
    October 16, 2009 9

    • Opinion on the Financial Statements of the Railroad Retirement Board for the Fiscal Year
    ending September 30, 2009, November 9, 2009 10

    • Fiscal Year 2009 Evaluation of Information Security at the Railroad Retirement Board,
    November 12, 2009

    ● Fiscal Year 2009 Financial Statement Audit Letter to Management, March 11, 2010

    • Examination of Management’s Assertion of Compliance with the Economic Recovery
    Payment Provisions of the American Recovery and Reinvestment Act of 2009,
    March 18, 2010

    • Examination of Management’s Assertion of Compliance with the Extended Unemployment
    Benefit Payment Provisions of the American Recovery and Reinvestment Act of 2009,
    March 24, 2010

All audits and other publicly available documents are available on our website
at www.rrb.gov/oig.




                                                       
    9
      Published as pages 111 – 115 of the Railroad Retirement Board’s Fiscal Year 2009 Performance and
    Accountability Report.
    10
       Published as pages 99 – 106 of the Railroad Retirement Board’s Fiscal Year 2009 Performance and
    Accountability Report.

 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                                     30
 


         Appendix B – Audit Reports with Questioned Costs or
         with Recommendations That Funds be Put to Better Use


                                                     Audit Reports
                                                                     Amount of     Amount of
                                                         with
                                                                     Questioned   Unsupported
                                                      Questioned
                                                                       Costs         Costs
                                                        Costs
A. For which no management decision had
been made by October 1, 2009
                                                          0              0             0
B. Which were issued from October 1, 2009
through March 31, 2010
                                                          0              0             0
Subtotal (A + B)                                          0              0             0
C. For which a management decision was
made between October 1, 2009 through                      0              0             0
March 31, 2010
(i) dollar value of disallowed costs                      0              0             0
(ii) dollar value of costs not disallowed                 0              0             0
D. For which no management decision had
been made by March 31, 2010
                                                          0              0             0
E. Report for which no management
decision was made within six months of                    0              0             0
issuance
 




                                                                 Audit reports with
                                                                                       Dollar
                                                                 Recommendations
                                                                                       Value
                                                                that Funds Be Put to
                                                                                       Value
                                                                     Better Use
    A. For which no management decision had been made by
                        October 1, 2009
                                                                         0                 0
       B. Which were issued from October 1, 2009 through
                        March 31, 2010
                                                                         0                 0
                       C. Subtotal (A + B)
                                                                         0                 0
              (i) dollar value of disallowed costs
                                                                         0                 0
            (ii) dollar value of costs not disallowed
                                                                         0                 0
    D. For which no management decision had been made by
                          March 31, 2010
                                                                         0                 0
     E. Report for which no management decision was made
                   within six months of issuance
                                                                         0                 0


 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                               31
 


      Appendix C – Report on Receivables, Waivers, and
      Recoveries
The FY 1999 appropriations language for OIG requires the reporting of additional
information concerning actual collections, offsets, and funds put to better use achieved
as a result of OIG’s activities.

                           Office of Investigations
Recoveries realized by the RRB resulting from court-ordered restitution and civil
damages:

                                                  Amount
                          Fiscal Year
                                                 Recovered
                              1999                   $ 855,655
                              2000                  $1,038,134
                              2001                   $ 990,356
                              2002                   $ 785,843
                              2003                   $ 947,876
                              2004                   $ 646,273
                              2005                   $ 844,183
                              2006                  $1,281,680
                              2007                  $1,347,049
                              2008                  $1,389,489
                              2009                  $1,097,227
                       10/1/09 – 3/31/10              $581,425

 




 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                      32
 


             Appendix C – Continued

                                                            Office of Audit

                                  Funds to be               Funds
                                                                          Receivables              Recoveries
                 Report           put to better            Agreed by
                                                                          Established   Waivers     to Date 11
                                       use                Management
                     99-03                  $50,850             $50,850       $50,850    $50,490          $360
                     99-14               $83,000                $83,000       $34,423                  $30,584
                     99-16           $48,000,000            $48,000,000                            $14,800,000
                     99-17           $11,000,000            $11,000,000                             $1,604,545
                     00-16                $235,000             $235,000                               $253,846
                     03-06                $306,129                  N/A            $0         $0      $306,129
                     04-06                $821,000             $821,000      $604,429     $5,564      $629,688
                     04-10                $400,000             $400,000                               $761,151
                     05-03             $1,800,000            $1,800,000     $4,587,453 $337,700     $1,718,252
                     05-06                  $10,000             $10,000                                $42,915
                     05-07             $1,070,000            $1,070,000       $50,581                  $51,229
                     05-10             $2,600,000            $2,600,000                 $311,000
                     06-04              $257,000              $257,000
                     06-05                    $2,100             $2,100
                     06-06                $200,000             $200,000       $13,712                  $20,369
                     09-02                $600,000             $600,000                               $265,672




                                                       
11
     Both overpayments and underpayments are included in this column.

 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                                                 33
 


             Appendix D – Significant Matters

The OIG has identified deficiencies in controls over financial reporting and information
security as significant matters. A summary of the issues and related recommendations
for corrective action follow.
                                                          Financial Reporting
The OIG previously identified internal control over financial reporting as a material
weakness. As a result, financial accounting controls cannot be relied upon to ensure
that material errors will be detected to prevent misstatements in financial reporting.
RRB financial managers have worked to strengthen internal control over financial
reporting during FY 2009. During the third quarter of FY 2009, the agency implemented
enhanced controls to address the weaknesses that, in the aggregate, were the basis for
the OIG's assessment of a material weakness during the prior year. 12 However,
because these enhanced controls were not implemented until mid-year, they could not
be relied upon to ensure the accuracy of accounting and reporting for FY 2009 and had
not been in operation for a period of time sufficient to support an assessment of overall
effectiveness.

Compliance with requirements                                     February 9, 2007      Report OIG: 07-01, #11
Report preparation                                               March 6, 2008         Report OIG: 08-01, #9
Transaction documentation                                        March 6, 2008         Report: OIG 08-01, #11
Journal voucher preparation and recording                        March 24, 2009        Report: OIG 09-02, #2 and 4


                                                          Information Security
The OIG previously evaluated information security pursuant to the provisions of the
Federal Information Security Management Act of 2002 (FISMA) and concluded that the
RRB has not yet achieved an effective FISMA-compliant security program. Although
agency managers are working to strengthen controls, management action in response
to the following OIG recommendations had either not been completed as of the end of
the current semiannual reporting period or had not been in place long enough to permit
evaluation.

Access Controls                                                   February 5, 2002     Report OIG 02-04, #20 and 21
                                                                  June 7, 2005         Report DSD Web, #16
                                                                  September 27, 2007   Report OIG 07-08, #1
                                                                  March 24, 2009       Report OIG 09-02, #7 and 8
                                                                  September 30, 2009   Report OIG 09-05, #8, 11, 12,
                                                                                       15, 19, and 20
                                                                  September 30, 2009   Report OIG 09-06, #3, 4, and 6
Internal Control Over Certification and                           July 18, 2005        Report OIG 05-08, #4
Accreditation
                                                                  September 30, 2008   Report OIG 08-05, #2 and 7
                                                                  November 12, 2009    Report OIG 10-01, #1 and 5

                                                       
12
     "Fiscal Year 2008 Financial Statement Audit Letter to Management," OIG Report No. 09-02, March 2009.
 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                                                    34
 


             Appendix E 13 – Management Reports



                              Final Action on Audits with Disallowed Costs
For the 6-Month Period Ending                                   Number of      Disallowed
March 31, 2010                                                 audit reports      costs

A.         Audit reports, with management decisions, on
           which final action had not been taken at the             0             $0
           beginning of the period.
B.         Audit reports on which management decisions
           were made during the period.                             0             $0

C.         Total audit reports pending final action during
           the period. (A + B)                                      0             $0

D.         Audit reports on which final action was taken
           during the period.

           1.         Recoveries
                      (a) Collections and offsets                   0             $0

                      (b) Property                                  0             $0

                      (c) Other                                     0             $0

           2.         Recovery Waived                               0             $0

           3.         Total of 1 and 2                              0             $0

E.    Audit reports needing final action at the end of
the period (C - D.3)                                                 0            $0




                                                       
             13
                  Appendix E was prepared by RRB management.

 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                  35
       


             Appendix E – Continued

              Management Report on Final Action on Audits with
             Recommendations to Put Funds to Better Use for the
                   6-Month Period Ending March 31, 2010
                                                                         Number of                    Funds to be
                                                                        audit reports               put to better use
A.   Audit reports, with management decisions, on
     which final action had not been taken at the
     beginning of the period.                                                  4                        $2,602,1001

B.   Audit reports on which management decisions
     were made during the period.                                              0                             $0

C.   Total audit reports pending final action during
     the period. (A + B)                                                       4                        $2,602,100

D.   Audit reports on which final action was taken
     during the period.

     1.    Value of recommendations implemented
           (completed)                                                         1                        $1,800,0002

     2.    Value of recommendations that
           management concluded should not or
           could not be implemented (completed)                                0                             $0

     3.    Total of 1 and 2                                                    1                        $1,800,000

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                      3                         $802,100

            1.   Comprised of the following amounts: $1,800,000 from Audit Report 05-03, “Evaluation of the RRB’s
                 Processing of Disability Earnings Cases,” $2,100 from Audit Report 06-05, “Review of Compliance with
                 Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits,” $200,000 from Audit
                 Report 06-06, “Review of the Termination and Suspension of Benefits Paid Under the Railroad
                 Retirement Act,” and $600,000 from Audit Report 09-02, “Fiscal Year 2008 Financial Statement Audit
                 Letter to Management.”
            2.   Audit Report 05-03, “Evaluation of the RRB’s Processing of Disability Earnings Cases.”




       
      Semiannual Report to the Congress
      October 1, 2009 – March 31, 2010                                                                                36
         



        Appendix E – Continued
           Management Statement on Resolved Audit Reports Over
        12 Months Old with Final Action Pending as of March 31, 2010 
                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use       Reason action not completed
Fiscal Year 2000 Financial Statement          2/23/01     NONE         NONE        While help desk procedures have been
Audit (01-03)                                                                      upgraded, the Bureau of Information
                                                                                   Services is still developing reports to
                                                                                   close the last open recommendation.

Review of Information Security at the         2/5/02      NONE          NONE        Information Services has closed 24
Railroad Retirement Board (02-04)                                                   recommendations and hopes to close
                                                                                    the remaining 4 in FY10.

Inspection of Unverified Records in the       3/20/03     NONE          NONE        Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                                   and are using a recently implemented
System (03-06)                                                                      tracking system to close the last
                                                                                    recommendation in FY10, however due
                                                                                    to ARRA and WHBAA work, project
                                                                                    extended to 12/31/2011 to be
                                                                                    completed.

Review of RRB Compliance with Federal         12/6/04     NONE          NONE        Information Services completed an
Laws and Regulations on Competitive                                                 initial feasibility study of sourcing
Sourcing (05-02)                                                                    information technology activities but
                                                                                    continues to investigate alternate
                                                                                    approaches and use contractor
                                                                                    support.

Review of Internal Control Over the           5/5/05      NONE          NONE        The Chief Actuary indicated that they
Actuarial Projection Process (05-04)                                                are reviewing their options to best
                                                                                    implement this recommendation.

Review of Customer Service Performance        5/17/05     NONE          NONE        System changes are still being made to
Measures for Timeliness of Initial Railroad                                         address the remaining open
Retirement Annuity Payments (05-05)                                                 recommendation in FY11.

Review of LAN, LAN Security Scan and          6/7/05      NONE          NONE        These contractor-prepared confidential
Web-based Applications (DSD)                                                        reports contained 45
                                                                                    recommendations, with two-thirds
                                                                                    closed thus far.

Review of Access Controls in the End-         7/18/05     NONE          NONE        Information Services has closed 14 of
User Computing General Support System                                               15 recommendations in this
(05-08)                                                                             confidential report. New risk
                                                                                    assessment must be submitted for
                                                                                    remaining case.

Fiscal Year 2005 Evaluation of Information 9/28/05        NONE          NONE        Information Services continues to
Security at the Railroad Retirement Board                                           develop policies and procedures.
(05-11)



         
        Semiannual Report to the Congress
        October 1, 2009 – March 31, 2010                                                                             37
         



        Appendix E – Continued
           Management Statement on Resolved Audit Reports Over
        12 Months Old with Final Action Pending as of March 31, 2010 
                                                     Disallowed Funds to be put
Report                                      Date        costs    to better use       Reason action not completed
Accuracy and Reliability of GPRA           1/30/06     NONE         NONE        Programs have closed three of the
Performance Measures: Timeliness of                                             seven recommendations. Work is
Non-Disability Survivor Annuity Payments                                        delayed due to higher priority project.
(06-03)                                                                         In addition further info is needed from
                                                                                OIG.

Review of Compliance with the Provisions   4/12/06     NONE          $2,100      Programs staff closed four of the five
of the Railroad Retirement Act Governing                                         recommendations. Project is awaiting
the Initial Award of Benefits (06-05)                                            completion of AARP project.

Review of the Termination and              5/24/06     NONE         $200,000     Programming work on a referral system
Suspension of Benefits Paid Under the                                            is pending that should close out the
Railroad Retirement Act (06-06)                                                  remaining open recommendation.

Review of Incident Handling and            8/24/06     NONE           NONE       Work continues on training material
Reporting at the Railroad Retirement                                             and progress has been made to
Board (06-09)                                                                    updating of policies.

Fiscal Year 2006 Financial Statement       2/9/07      NONE           NONE       The agency has closed 19 of the 20
Audit (07-01)                                                                    recommendations, with action on the
                                                                                 final one to be verified as part of the
                                                                                 FY08 financial statement audit.
                                                                                 Submitted documentation to OIG for
                                                                                 review. However OIG indicate they will
                                                                                 evaluate implementation of this
                                                                                 recommendation during FY2010
                                                                                 financial statement audit.

Audit of the DAISY/CHICO Component         3/9/07      NONE           NONE       Documentation was submitted to OIG
Application of the RRA Benefit Payment                                           for implementation on one
Major Application System (07-02)                                                 recommendation and coordination with
                                                                                 another agency is needed and
                                                                                 resources were unavailable on the
                                                                                 other two recommendations.

Audit of the State Wage Match Data         3/28/07     NONE           NONE       Coordination required with outside
Transmission Controls (07-04)                                                    agencies. Programs plans to complete
                                                                                 action to address the two remaining
                                                                                 open recommendations in FY10.

Evaluation of the Railroad Retirement      7/30/07     NONE           NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources were needed.
                                                                                 Of the 15 recommendation, 6 have
                                                                                 been closed with the remainder
                                                                                 targeted for completion during FY10.




         
        Semiannual Report to the Congress
        October 1, 2009 – March 31, 2010                                                                          38
         



        Appendix E – Continued
           Management Statement on Resolved Audit Reports Over
        12 Months Old with Final Action Pending as of March 31, 2010 
                                                         Disallowed Funds to be put
Report                                         Date         costs    to better use       Reason action not completed
Audit of Federal Income Taxes Withheld        7/30/07      NONE         NONE        Coordination required with another org.
from Railroad Retirement Annuities (07-                                             Three of the six recommendations
07)                                                                                 have been closed, with the rest
                                                                                    targeted for completion in FY10.

Fiscal Year 2007 Evaluation of Information 9/27/07         NONE          NONE        Policy and procedures still being
Security at the Railroad Retirement Board                                            developed. Two of the eight
(07-08)                                                                              recommendations have been closed
                                                                                     with the rest targeted for completion in
                                                                                     FY10.

Audit of Controls to Safeguard Sensitive      9/27/07      NONE          NONE        Coordination required with outside
Personally Identifiable Information (07-09)                                          contractor on one recommendation. Of
                                                                                     the 22 recommendations, 6 have been
                                                                                     implemented with work plans still being
                                                                                     developed for other recommendations
                                                                                     to be finished in FY10.

Fiscal Year 2007 Financial Statement           3/6/08      NONE          NONE        OIG will reassess the implementation
Audit Letter to Management (08-01)                                                   of the last two recommendations during
                                                                                     the FY10 financial stmt audit. Of the 25
                                                                                     recommendations, 23 have been
                                                                                     implemented.

Implementation of Selected Requirements 05/14/08           NONE          NONE        Coordination required with outside
for Gov’t Charge Card Program (08-02)                                                contractor. Of the 5 recommendations,
                                                                                     4 recommendations have been
                                                                                     implemented with work on the
                                                                                     remaining one to be finished in FY10.

Evaluation of Information Security for the    09/26/08     NONE          NONE        Documentation submitted to OIG for
RRB’s Financial Interchange Major                                                    review on one recommendation and
Application – Abstract (08-03)                                                       work continues on others. Of the 11
                                                                                     recommendations, 2 have been
                                                                                     implemented with work on the
                                                                                     remaining ones to be finished in 2010.

Fiscal Year 2008 Evaluation of Information 09/26/08        NONE          NONE        Coordination required with outside
Security at the RRB (08-05)                                                          contractor on 1 recommendation and
                                                                                     with another org on another
                                                                                     recommendation. Of the 8
                                                                                     recommendations, 4 have been
                                                                                     implemented with work on the
                                                                                     remaining ones to be finished in FY10.




         
        Semiannual Report to the Congress
        October 1, 2009 – March 31, 2010                                                                               39
         



        Appendix E – Continued
           Management Statement on Resolved Audit Reports Over
        12 Months Old with Final Action Pending as of March 31, 2010 
                                                     Disallowed Funds to be put
Report                                      Date        costs    to better use       Reason action not completed
Fiscal Year 2008 Financial Statement      03/24/09     NONE         NONE        Of the 13 recommendations,
Audit Letter to Management (09-02)                                              documentations for 9 were submitted to
                                                                                the OIG for implementation. Review
                                                                                and updating of documentations along
                                                                                with case reviews are currently being
                                                                                performed on remaining
                                                                                recommendations.

Audit of Internal Control Over Accounts   03/31/09     NONE          NONE       Of the 18 recommendations, 13 were
Payable (09-03)                                                                 implemented. Work continues on the
                                                                                remaining recommendations.




         
        Semiannual Report to the Congress
        October 1, 2009 – March 31, 2010                                                                       40
 


       Appendix F – Reporting Requirements
Act Reference       Inspector General Reporting Requirements              Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                     28
Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies              34
Section 5(a) (2)    Recommendations With Respect to Significant                 34
                    Problems, Abuses, and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet                   34
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities              4, 13
Section 5(a) (5)    Instances Where Information Was Refused                  None
Section 5(a) (6)    List of Audit Reports                                       29
Section 5(a) (7)    Summary of Each Significant Report                      5 – 11
Section 5(a) (8)    Statistical Tables on Management Decisions on               31
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on               31
                    Recommendations That Funds Be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  12
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant         None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management               None
                    Decisions With Which the Inspector General
                    Disagrees
Act Reference       Management Reporting Requirements                     Page(s)
Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                             Letter
Section 5(b) (2)    Statistical Table on Final Action on Disallowed             35
                    Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           36
                    Better Use
Section 5(b) (4)    Statement on Audit Reports With Final Action          37 – 40
                    Pending


 




 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                      41
 


       Appendix G – Acronyms
Acronym      Explanation

ACE          Affirmative Civil Enforcement
AGA          Association of Government Accountants
ARRA         American Recovery and Reinvestment Act of 2009
DME          Durable Medical Equipment
FISMA        Federal Information Security Management Act of 2002
FY           Fiscal Year
GAO          Government Accountability Office
HEAT         Health Care Fraud Prevention & Enforcement Action
             Team
IG           Inspector General
LIRR         Long Island Rail Road
NRRIT        National Railroad Retirement Investment Trust
OA           Office of Inspector General for the Railroad
             Retirement Board – Office of Audit
OI           Office of Inspector General for the Railroad
             Retirement Board – Office of Investigations
OIG          Office of Inspector General for the Railroad
             Retirement Board
OMB          Office of Management and Budget
RRA          Railroad Retirement Act
RRB          Railroad Retirement Board
RRSIA        Railroad Retirement and Survivors’ Improvement Act
             of 2001
RUIA         Railroad Unemployment Insurance Act
SI           Sickness Insurance
UI           Unemployment Insurance

 




 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                   42
 


      Appendix H – Legal Citations
American Recovery and Reinvestment Act of 2009 – P.L. 111-5

Conspiracy to Commit Health Care Fraud – 18 U.S.C. § 1349

Criminal Forfeiture – 18 U.S.C. § 2461 and § 981(a)(1)(C)

Failure to Report Information – 45 U.S.C. § 231(a)

Failure to Report to the RRB – 45 U.S.C. § 231(l)

False and Fraudulent Claims – 18 U.S.C. § 287

False Claims Act – 31 U.S.C. §§ 3729 - 3733

Federal Information Security Management Act of 2002 – 44 U.S.C.
§ 3531, et. seq.

Fictitious or Fraudulent Statement – 18 U.S.C. § 1001

Health Care Fraud – 18 U.S.C. § 1347

Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

Inspector General Act Amendments of 1988 – 5 U.S.C. App. 3

Prevent Health Care Fraud Act of 2009 – H.R. 4222 and S. 2128, 111th Cong., 1st Sess.
(2009)

Railroad Retirement Act – 45 U.S.C. § 231, et. seq.

Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

Railroad Retirement and Survivors’ Improvement Act of 2001 – 45 U.S.C. § 231n(j)

Reports Consolidation Act of 2000 – P.L. 106–531

Seniors and Taxpayers Obligation Protection Act of 2009 – S. 975, 111th Cong., 1st
Sess. (2009)

Social Security Act – 42 U.S.C. § Ch. 7

Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641

Wire Fraud – 18 U.S.C. § 1343
 
Semiannual Report to the Congress
October 1, 2009 – March 31, 2010                                                     43
 

                           REPORT

          FRAUD, WASTE, AND ABUSE




             




                  Call the OIG Hotline:
                         1-800-772-4258

                 E-mail: Hotline@oig.rrb.gov

    The OIG cannot ensure confidentiality to persons who provide
    information via e-mail. Do not send information by e-mail that
                you do not want a third party to read.

                Write: RRB, OIG Hotline Officer
                       844 N. Rush Street
                 Chicago, Illinois 60611-2092
 


 
